<html>
<title> - CRIMINAL JUSTICE REFORM, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    CRIMINAL JUSTICE REFORM, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

                           Serial No. 114-59

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
99-634 PDF                     WASHINGTON : 2016                          
_______________________________________________________________________________________              
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  
             
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                      Sean Brebbia, Senior Counsel
                         Jack Thorlin, Counsel
                    Sharon Casey, Deputy Chief Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2015....................................     1

                               WITNESSES

Mr. Kevin Ring, Director of Strategic Initiatives, Families 
  Against Mandatory Minimums
    Oral Statement...............................................     5
    Written Statement............................................     9
Mr. Marc A. Levin Director, Right on Crime and Center for 
  Effective Justice, Texas Public Policy Foundation
    Oral Statement...............................................    21
    Written Statement............................................    24
Mr. John G. Malcolm, Director, Edwin Meese III Center for Legal & 
  Judicial Studies, Heritage Foundation
    Oral Statement...............................................    39
    Written Statement............................................    41
Ms. Liz Ryan, President and CEO, Youth First! Initiative
    Oral Statement...............................................    55
    Written Statement............................................    57
Mr. Brett L. Tolman, Co-Chair, White Collar Criminal Defense and 
  Corporate Compliance Practice Group, Ray Quinney & Nebeker
    Oral Statement...............................................    69
    Written Statement............................................    71

                                APPENDIX

The Sentencing Project: ``Black Lives Matter: Eliminating Racial 
  Inequality in the Criminal Justice System''....................   110
Human Rights Watch Hearing Statement, Submitted by Ms. Duckworth.   111
ACLU Hearing Statement...........................................   118

 
                    CRIMINAL JUSTICE REFORM, PART II

                              ----------                              


                        Wednesday, July 15, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Gosar, Meadows, DeSantis, Buck, Hice, Russell, Carter, 
Grothman, Hurd, Cummings, Norton, Connolly, Cartwright, 
Duckworth, Kelly, Lawrence, Lieu, Plaskett, DeSaulnier, and 
Lujan Grisham.
    Chairman Chaffetz. The committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    We thank the panel and those in the audience for joining 
us. This is day two of a criminal justice reform oversight 
hearing. We have had two panels yesterday and a distinguished 
panel today, and we appreciate the time and attention. This is 
ripe for oversight, but it is even more ripe in time to do 
something about it. This committee is the Oversight and 
Government Reform Committee. There are a number of things we 
can do on a bipartisan basis to make this part of our society 
and this part of government working better.
    Today, we continue our discussion on criminal justice 
reform, and the committee is devoting, as I said, 2 days on 
this topic for a very important reason: The time to enact 
meaningful criminal justice reform is now. At a time when 
gridlock has become the norm, something important happened 
yesterday. We saw two Senators, two House Members, and two 
Governors, both sides of the aisle in a bipartisan, bicameral 
way, express the need and desire to actually move meaningful 
criminal justice reform. While the details of their proposals 
varied, the unifying theme we heard was that reform is needed 
and there is no time to waste.
    States are leading the way in innovative reforms in which 
the Federal Government can learn. We were fortunate yesterday 
to hear from Governors Bentley and Markell about the reform 
efforts underway in Alabama and Delaware, and they are not the 
only States. States like Texas and Georgia and others are 
making meaningful reforms, and have led the way and shown that 
it can be done, and reduce the rate of recidivism.
    As we continue our discussion today, it is time to continue 
to roll up our sleeves. We have the chance to hear from a panel 
of experts who can answer our questions about effective 
criminal justice reform, and we are looking forward to hearing 
about specific topics: The use of evidence-based risk 
assessment tools to identify lower risk inmates; identifying 
programs that have demonstrated record of reducing recidivism 
rates for youths inside of prison facilities, keeping more 
juveniles out of prison, and what is going to happen to these 
people when they come out of prison?
    Remember, the vastly expanded number of Federal criminal 
laws and the use of Federal criminal courts in enforcing 
economic and other regulations is something that needs to be 
addressed.
    We also need to address the ever-increasing Federal prison 
population and the Bureau of Prisons' budget. It is 140 percent 
of capacity. It is consuming nearly one-third of the Department 
of Justice budget. You can't continue to sustain those numbers.
    We need to also examine reforms that are smart on crime but 
also protect public safety. There are people that have 
committed heinous crimes. That need to pay a punishment, they 
need to pay back a debt to society, but let's also remember 
that more than 95 percent of the people who go to prison, they 
are coming back out. Are they going to be better criminals? Or 
we actually going to engage in the reform necessary to be the 
Department of Corrections? In fact, a bill that Hakeem Jeffries 
and I sponsored would rename the Federal Bureau of Prisons to 
the Department of Corrections. That is the way it is in all 50 
States. In all 50 States, it is the Department of Corrections, 
but the government, the Federal Government attitude and 
approach to this is it calls it the Bureau of Prisons. It is 
time to change the name, change the attitude and the approach, 
and recognize that we need to engage in reform.
    The prisoners are reentering the community, and too many 
are returning to a life of crime. When we look at a smarter, 
fairer, and more cost-effective way for our criminal justice 
system to work, we must also ensure that our efforts do not 
jeopardize public safety. Indeed, some of the proposals 
discussed yesterday strike this proper balance. For example, we 
heard ideas from Senator Cornyn, Governor Markell and others 
about using risk assessments to identify low-risk prisoners. 
Those prisoners can then be subject to community-based 
supervision instead of the expensive and counterproductive 
imprisonment, or maybe it is some combination in between.
    The panel today has this type of expertise and they have 
seen this up close and personal, and that is why this is an 
important hearing today. We look forward to exploring those 
ideas so we can continue to find areas of reform that we agree 
on while standing firm on the policies and strategies that are 
essential to success.
    We, again, thank the panel. I will now recognize the 
ranking member, the gentleman from Maryland, Mr. Cummings, for 
5 minutes.
    Mr. Cummings. Chairman Chaffetz, I want to thank you again, 
as well as all the other members of our committee, for the very 
productive discussion we are having on how to make significant 
bipartisan, bicameral lasting improvements to our criminal 
justice system. I also thank my esteemed colleagues who 
testified with us yesterday with such great passion and 
eloquence.
    Criminal justice is personal to me. I have seen the 
problems that plague the system through many lenses. As a young 
boy growing up in a poor section of Baltimore, watching my 
classmates go and be carted away to juvenile detention centers, 
I have seen it through that lens. I have seen it during my days 
as a young lawyer representing criminal defendants, who so 
often simply were minding their business when a police officer 
came upon them, said something, or in some instances told them 
to drop their pants in front of their girlfriends. It then 
escalated, and the next thing you know, he is charged with 
resisting arrest, assault on a police officer, disorderly 
conduct, and then he has a record.
    I have seen them as a State representative, who has deep 
respect for the dedicated police officers that serve our 
community. I have seen them as a Congressman representing a 
district where finding balance between law and order and crime 
and punishment is a profound concern to my constituents. And 
this year, I have seen them as a citizen of my community, 
Baltimore, a city where I was born, a city where I raised my 
family, a city where I have lived my whole life, and I watched 
it erupt after the tragic death of Freddie Gray.
    Unfortunately, one lens that has not changed enough is the 
lens of color. I can see things, continue to see African-
Americans in this country facing daunting economic challenges, 
disproportionately high rates of poverty, and severe 
unemployment. There are too many communities of color that are 
missing family members, especially fathers, sons, and brothers 
who are in jail.
    African Americans are incarcerated nearly six times the 
rate of whites. When these men leave prison, they come home to 
the same communities where they struggled to begin with, and so 
often, there is nothing there for them. You see, they have been 
saddled with a record, which bar them from getting grants to go 
to school, bar them from getting certain jobs. In some States, 
you can't even become a barber once you get a record. At the 
same time, we tell them, go out there and do well, support your 
family, and there is nowhere to go.
    It is not unusual when I go back to my district, which is 
located not too far from the stadiums, for me to hear young 
men, I hear this almost every week, somebody comes up to me and 
says, Mr. Cummings, can you help me find a job? I don't want to 
do a crime, I just want to do a job. And then they tell me they 
can't get a job, because no one will employ them. And so when 
they come back from prison or they have a record, they have a 
big mark on their back.
    It is very easy for us to say it doesn't matter. It does 
matter, because there are thousands upon thousands upon 
thousands of them, and the number grows every single day. In 
some cases, they lose their driver's licenses, they are 
ineligible for occupational licenses, and they have great 
difficulty finding any kind of employment.
    When they can't find a job, many return to what they know: 
They commit more crimes, and the cycle starts over and over 
again.
    A lot of people don't understand the criminal situation, 
and I kind of got a good view of it one time not long ago when 
a young man was talking about how he had--in my neighborhood, 
had now turned his life around and that he was now on the 
straight and narrow, and he said, I used to have to rob folk. 
And as I began to talk to him more and more, I realized that 
robbery was the way he earned his money. And it is not just one 
robbery; that is how he had to go out day after day after day, 
just like we go to work. That means that there are more victims 
and more problems.
    Yesterday Senator Booker spoke about the 2.7 million 
children who have incarcerated parents, and the one in nine 
African American children who have parents behind bars. These 
kids are more likely to be suspended from school and go to 
prison themselves. This is how the cycle continues to the next 
generation. As I mentioned yesterday, my oldest brother has 
been a public defender for 40 years, and he has now seen 
families with three generations in the criminal justice system, 
grandfathers, sons, and grandsons all together.
    Ladies and gentlemen, this is the United States of America. 
We must do better, and we can. We cannot stand by while these 
alarming disparities and destructive cycles persist generation 
after generation. We owe it to generations yet unborn to make 
lasting changes that provide opportunities and hope. We should 
invest in reform now so the next generation can escape this 
cycle of despair.
    As I said yesterday, these hearings are a landmark moment 
for this committee. And Mr. Chairman, I do, I applaud you for 
what you have done, and I applaud your staff for what they have 
done in working with mine. I really appreciate it.
    We have heard about groundbreaking legislative proposals 
like the evidence-based bipartisan State Justice Act, we have 
learned how States are, ``banning the box,'' and how private 
sector companies like Wal-Mart and Koch Industries are changing 
their approaches so those with criminal records are not 
automatically disqualified from all employment.
    And that leads me to another point. It is not just 
government that has to try to make some changes. Corporations 
can play a major, major role, and we can help them and 
encourage them to do so. Governor Bentley talked yesterday 
about the importance of providing topnotch free kindergarten 
education for all children in Alabama. Governor Markell talked 
about a women's prison in Delaware that hosts a culinary 
festival featuring the work of inmates alongside established 
professional chefs.
    These advancements are happening because we are coming to 
understand that we cannot look at our criminal justice system 
in a vacuum. We need to take a comprehensive approach to 
criminal justice reform.
    As I close, we have a unique moment, a bipartisan momentum 
for true, I mean, true reform, and it is ours to seize. But 
momentum is nothing without action. I hope that the hearings 
inspire strong action. My Republican colleagues and I disagree 
about many things, but on this issue, on this issue, we have an 
opportunity to reach not only common ground, but higher ground.
    I want to thank the chairman again for holding these 
hearings, and I look forward to hearing from all of our 
esteemed witnesses, and I thank the witnesses for being here.
    And with that, Mr. Chairman, I yield back and I thank you.
    Chairman Chaffetz. I thank the gentleman. The passion and 
the belief in his heart on this topic is exuded every time, and 
I do appreciate working with you on this.
    I also--I don't normally do this, but I do appreciate the 
audience being here. This is a demonstrably younger demographic 
than we normally have in our hearings, and it's good to see. We 
don't have nearly enough young people involved and engaged in 
civics and in their government, and on this topic, we need your 
help, and so we appreciate your joining us here today as well.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement, but we'd 
now like to recognize our panel of witnesses.
    I am pleased to welcome Mr. Kevin Ring, Director of 
Strategic Initiatives with Families Against Mandatory Minimums; 
we have Mr. Marc Levin, Director of the Right on Crime and 
Center for Effective Justice at the Texas Public Policy 
Foundation; Mr. John Malcolm, Director of the Edwin Meese, III, 
Center for Legal and Judicial Studies at the Heritage 
Foundation; Ms. Liz Ryan, President and CEO of the Youth First! 
Initiative; and Mr. Brett Tolman, cochair of the White Color 
Criminal Defense and Corporate Compliance Practice Group at Ray 
Quinney & Nebeker. I would also note that Mr. Tolman is from 
Utah, served as the U.S. Attorney in Utah, was deeply involved 
with Senator Hatch in the Senate Judiciary Committee, and I 
have leaned on him heavily for perspective and insight on this 
topic, and we appreciate his presence and expertise here as 
well.
    Pursuant to committee rules, witnesses are to be sworn 
before they testify. So if you will please each rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect that all the witnesses answered 
in the affirmative.
    In order to allow time for discussion, you are going to see 
that members are coming in and out, we have several hearings 
going on simultaneously, we would appreciate it if you would 
limit your verbal comments to 5 minutes. You will see a red 
light appear. That's your cue that you have gone overtime. As 
my colleague, Trey Gowdy, likes to say, when you see the yellow 
light, that means speed up, as it does at every stoplight we 
see in this country. And by the time you get to red, you better 
be stopped, so--but your entire written record will be 
submitted into the record.
    We'll now recognize Mr. Ring. You're now recognized for 5 
minutes. Push that button and make sure that microphone's 
close, and the time is yours.

                       WITNESS STATEMENTS

                    STATEMENT OF KEVIN RING

    Mr. Ring. Can you hear me?
    Chairman Chaffetz. Yes.
    Mr. Ring. Chairman Chaffetz, Ranking Member Cummings, 
members of the committee, my name is Kevin Ring. I serve as 
Director of Strategic Initiatives for Families Against 
Mandatory Minimums. Thank you for the opportunity to testify.
    I should mention, you said there was a young crowd here. 
The youngest is my daughter, who joins us today. My older 
daughter is sleeping off the Taylor Swift concert from last 
night, so she couldn't make it.
    Chairman Chaffetz. Your testimony thus far is entirely 
truthful, I can tell you that.
    Mr. Ring. Given some unique experiences, I have had a lot 
of time over the past 20 years to think about the Federal 
criminal justice system, and I've been able to examine it from 
wildly different perspectives.
    In the 1990s, I worked on Capitol Hill as a staffer, both 
in the House and the Senate. I was a counsel on the Senate 
Judiciary Committee and helped draft some anti-crime 
legislation, really bad anti-crime legislation, I see now.
    I then observed the legislative process from a different 
perspective as a lobbyist. Ultimately, my work as a lobbyist 
brought me under Federal scrutiny. After two trials and 
appeals, I was sentenced to serve 20 months in Federal prison. 
I spent 15-1/2 months at the Federal camp in Cumberland, 
Maryland. I then served 2 months of home confinement, wearing a 
GPS monitor, which ended just a few weeks ago.
    I began working for FAMM before I was indicted. I continued 
to work there during my trials, and returned as soon as I got 
home from prison.
    I hope to talk about FAMM's strong support for sentencing 
reform, especially the Sensenbrenner-Scott Safe Justice Act. 
But first, I wanted to share a few observations from my time in 
prison. I begin with the necessary caveat that I served in only 
one of the BOP's 122 institutions, but I think my observations 
go beyond there.
    First, I saw little to no rehabilitation in prison. There 
were few useful programs. The institution was either 
understaffed or uninterested in providing worthwhile 
programming. Drug treatment, trade apprenticeships, GED 
classes, I was a dog handler, there were a few exceptions. Most 
people worked menial jobs and collected their $0.12 to $0.15 
per hour wages.
    If you were not in the Residential Drug Abuse Program, 
called RDAP, you were mostly limited to what were called ACE 
classes, adult continuing education. These were taught by other 
inmates. Offerings at Cumberland included such life-enhancing 
classes as Movie Review, Jeopardy, and Current Events. Most 
inmates skipped these classes but would sign the attendance 
sheets so the administration thought they went. The classes 
were 1 hour each week for 10 weeks, and then when you completed 
the 10-week session, you got a certificate. Prison officials 
seemed to know that these classes were worthless, but I think 
it was thought that if we went to them, we'd look busy and 
they'd look better for keeping us busy.
    The most glaring deficiency in the area of programming was 
the lack of any cognitive behavioral therapy or anger 
management counseling. I know some people still hold on to myth 
that criminals, drug and white collar, are rational actors who 
review the U.S. Code and weigh the costs and benefits before 
breaking the law. The fact, however, is that the overwhelming 
majority of the inmates are not just poorly educated, but also 
have terrible social skills and very little impulse control, 
ability to delay gratification, or risk awareness. The result 
is bad decision-making.
    These, it seemed to me, were the shortcomings that needed 
to be addressed. At Cumberland, however, we had 250 inmates and 
one psychologist. And despite studies from the National 
Institute of Justice showing the effectiveness of cognitive 
therapy, BOP's main program for this is offered in just two of 
its 122 institutions.
    There are few other things that are worth mentioning from 
my time, in no particular order. The health care is miserable. 
The waiting list to have a cavity filled is 2 years. If you 
experience intense enough pain, they'll pull your tooth. One of 
my bunkmates, a successful businessman, had eight teeth pulled 
during his 10-year sentence. Another fellow inmate was given 
the wrong blood pressure medicine and spent the night on the 
floor of the TV room after fainting.
    I spent 40 consecutive hours in solitary confinement 
because the administration decided to quarantine us when a 
scabies outbreak occurred. Without a book or a piece of paper 
or pencil to write anything, I thought I was going to lose my 
mind. I understand now why so many people believe that 
isolation is a dangerous and overused tool.
    I saw over and over how difficult it is for a family to 
survive the incarceration of one of its members.
    Finally, I witnessed how flagrantly the BOP is disregarding 
the Second Chance Act, which was passed by Congress in 2007. 
Low risk, nonviolent inmates are supposed to be able to get up 
to 12 months of halfway house time. This provision was designed 
to save taxpayers money and incentivize good behavior. It's not 
happening. The BOP says the problem is a lack of halfway house 
beds around the country. The GAO looked at the issue and 
agreed, concluding that Congress would need to spend more than 
half a billion dollars more every year just to implement the 
Second Chance Act's halfway house provisions. Given this 
reality, I think members should rethink the value of 
legislative proposals to make inmates eligible for more of 
something they already can't get.
    My time in prison reaffirmed my belief that the only way 
Congress can improve public safety while reducing costs is to 
reform Federal sentencing laws, especially mandatory minimum 
sentences. Mind you, I did not get a mandatory minimum 
sentence. You can't simply try to unclog the drain by giving 
some people a few days off here and there for good behavior and 
rehabilitation. You need to adjust the spigot and manage the 
inflow.
    The State Justice Act just introduced by Representatives 
Sensenbrenner and Bobby Scott is a good example of legislation 
that would reduce the flow of inmates in a responsible way.
    I served with some prisoners who received mandatory minimum 
sentences that did not seem disproportionate. I met several 
others, however, who were serving mandatories that far exceeded 
any notion of a fair sentence. That is the problem with one-
size-fits-all sentences. Not everyone is the same, and not 
every crime is the same.
    Mr. Chairman, one reason I think that lengthy sentences can 
be so counterproductive is because prison infantalizes people. 
You often hear that it hardens people, but I saw it infantalize 
people. I rarely hear people talk about this. Everything we do 
and everything we need as prisoners is on campus. Inmates have 
very few responsibilities. Within a couple of years, people 
start to become institutionalized. They know what it takes to 
get by day to day in prison, but lose touch with what it takes 
to live outside.
    So while some people absolutely deserve prison time, our 
goal should be to give them as little as necessary to 
accomplish the purposes of sentencing. If society can get its 
pound of flesh with a 3- or 5-year sentence, go with that 
instead of 10 years. It's incredibly important to keep in mind 
that while people are in prison, the world does not stop. 
Technology advances, job markets change, children age and stop 
seeing their incarcerated loved ones as an authority figure, 
and spouses and partners bear burdens alone and often move on. 
And while all this is happening, whatever skills a prisoner 
brought to prison start to atrophy, and they don't gain any new 
skills. So we must be mindful that more than 90 percent of 
prisoners are coming home someday, and we want them to be 
successful, if not for their sake, for the sake of those who 
want to live in safe communities with less crime.
    In conclusion, we at FAMM appreciate the leadership that 
you, Mr. Chairman and Ranking Member Cummings, have 
demonstrated in calling for these 2 days of hearings. We will 
continue to help in any way we can to make sure that all this 
momentum does not go to waste, and that we end this process 
with a meaningful reform bill that takes effect as soon as 
possible. Thank you.
    [Prepared statement of Mr. Ring follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you.
    Mr. Levin, you're now recognized for 5 minutes. Did I 
pronounce it properly?
    Mr. Levin. Yes.
    Chairman Chaffetz. Is it Levin?
    Mr. Levin. Yes, Chairman. Thank you very much. It's a 
pleasure to be----
    Chairman Chaffetz. Is your microphone--make sure that 
button is pushed.
    Mr. Levin. Oh.
    Chairman Chaffetz. There you go. Thanks.


                   STATEMENT OF MARC A. LEVIN

    Mr. Levin. It's a pleasure to be here. I started working on 
criminal justice reform with the Texas Public Policy Foundation 
in 2005, and then we launched Right on Crime in 2010, our 
national initiative with signatories to our statement of 
principles, like Newt Gingrich, J.C. Watts, Grover Norquist, 
and, of course, our governor, Rick Perry, former governor. And 
we have a phrase in Texas, ``It ain't bragging if it's true,'' 
and since we began our efforts in 2005, our crime rate is down 
24 percent, and our incarceration rate is down 12 percent. But 
I'll tell you even more than that, we are seeing that across 
the country. Over the last several years, according to the Pew 
Center, States that have reduced incarceration have actually 
had a larger crime rate decline than the rest of the country. 
And we have seen major reforms in States such as Utah this 
year, congratulations, Chairman, but also South Carolina, North 
Carolina, Georgia, Mississippi, Kansas, Connecticut, the list 
goes on.
    And so this provides a lot of momentum, I think, for 
Federal action as well. And we've seen reform in a host of 
areas in States, from mandatory minimums, to earned time, to 
addressing the growth of regulatory crimes. In Texas, we 
adopted the rule of lenity this year, which says that if an 
offense is ambiguous, the benefit of the doubt goes to the 
defendant. We've also seen States like Mississippi, Maine, and 
Colorado safely reduce solitary confinement by more than two-
thirds.
    So let me talk a little bit about what Federal reforms can 
take place. And we very much urge Congress to take action this 
year on comprehensive reforms, including both front-end and 
back-end change. And the Safe Act is excellent. There's also 
many other bills, your bill, Chairman Chaffetz, as well as some 
legislation that a working group in the Senate is putting 
together that will also contain front- and back-end reforms. So 
one of the places to start, of course, is sentencing, as Mr. 
Ring mentioned, and looking at the Federal mandatory minimums.
    And once again, particularly as we look at nonviolent 
offenses, some of these mandatory minimums result in excessive 
prison terms that go beyond the nature of the offense, and so 
drugs is one of those examples.
    And so, for example, the problem with many of these 
mandatory minimums is rather than just focusing on kingpins, 
and we wish one more of those was in prison today in Mexico, 
but they focus on small-level drug dealers, low level drug--and 
even drug users. And so, for example, one of the problems is 21 
U.S.C. 851, and what that says is if a Federal defendant is 
convicted of as little as 10 grams of certain drugs and has one 
or more prior convictions for drug offenses, the mandatory 
minimum is 20 years with a maximum of life in prison; and if 
there were two prior felony drug offenses that the prosecutor 
files notice of, life without parole, life in Federal prison is 
mandatory. And these prior offenses could even be State 
offenses that resulted in diversion, a possession of very small 
amounts of drugs. So this is a major problem.
    And so to illustrate my point, we do have a safety valve 
now, but currently, that applies to only 24 percent of all drug 
Federal mandatory minimum cases, and it applies to only 24 
percent of cases, even though only 7 percent who are charged 
with these Federal drug mandatory minimums are considered 
leaders, supervisors, or managers.
    Now, in addition to drug cases, there are other problems 
with mandatory minimums. One of those deals with people with a 
felony record who have a gun or even ammunition, and these can 
result in mandatory minimums of 10 to 40 years. There was one 
particular case of an elderly gentleman in Tennessee who was 
hunting turkey with a rifle, and he wound up getting a 15-year 
mandatory minimum that a Federal judge said was way too harsh.
    Now, turning to the back end, we also see a need for earned 
time provisions. Wisconsin implemented earned time several 
years ago, and they found that those inmates who took advantage 
of that and completed programs had a 17 percent recidivism rate 
compared to 28 percent of those who didn't of similar inmates.
    We need to reduce the more than 12,000 in Federal solitary 
confinement through disciplinary alternatives, such as 
withholding privileges, a gradual process for earning your way 
out of solitary, and, of course, Stop It, releasing inmates 
directly from solitary confinement.
    Also, looking at a bill we passed just this year in Texas, 
nondisclosure, where you can have your record sealed after a 
number of years of living safely in the community crime-free, 
and be able to move on in your life.
    And then, also, we need to address the problem of over-
criminalization and over-federalization, and this includes 
reducing the over 4,500 Federal statutory offenses, which could 
be done through a military-base style closure commission, 
consolidating all remaining offenses in a unified criminal 
code.
    We also need to remove authority from Federal agencies to 
impose criminal penalties by rule that are not directly 
authorized by Congress. We need to adopt a default mens rea 
provision as Ohio did last year, so conduct must be knowing or 
intentional, if not otherwise specified. And we need the 
Department of Justice to adopt guidelines to focus on Federal 
prosecutions on those areas where the Federal Government has a 
clear advantage, such as those implicating homeland security, 
international relations, and crossing State lines.
    Finally, let me urge you to address the civil asset 
forfeiture problem. This has resulted in confiscation of money 
and property from many innocent Americans. And the Fair Act is 
a great way to start. That takes a number of reforms, including 
making sure there is clear and convincing evidence, not just 
preponderance of the evidence, getting rid of equitable 
sharing, which States have used to circumvent some of their own 
restrictions on asset forfeiture. And also, making sure the 
property is automatically returned to people if they're not 
convicted, rather than putting the burden on them to hire a 
lawyer and file a lawsuit.
    So I'll conclude by just saying we are so grateful to the 
bipartisan leadership that we are seeing on this committee and 
across Congress, and we're very encouraged that major reform 
can happen this year. Thank you.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Mr. Levin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Malcolm, you're now recognized for 5 minutes.

                  STATEMENT OF JOHN G. MALCOLM

    Mr. Malcolm. Chairman Chaffetz, Ranking Member Cummings, 
distinguished Members of Congress. As you heard, I am the 
Directed of the Meese Center for Legal and Judicial Studies at 
the Heritage Foundation, although my remarks today, the views 
that I express, are my own. I also spent a good deal of my 
career as a Federal prosecutor and a criminal defense attorney.
    Sentencing reform, which will be the focus of my remarks 
today, is a very difficult issue. Some believe that too much 
discretion has been removed from judges, and that increased 
incarceration has led to inequities in our society. Others 
believe that harsh sentences have taken some very dangerous 
people off of the streets, and that if such sentences are cut, 
crime rates may well increase. I understand why people of 
goodwill disagree passionately about this issue. When crime 
rates soared in the 1960s or 1970s, the idea of putting more 
people in prison for longer periods of time made a lot of 
sense, and to some extent it worked. Crime rates leveled off, 
and since the 1990s, have dropped precipitously. While there 
are places in this country where crimes rates remain 
staggeringly and persistently high, we are, for the most part, 
much safer.
    Increased incarceration, especially of violent offenders, 
certainly deserves some of the credit, but how much credit is a 
matter of debate. While some experts estimate that increased 
incarceration may be responsible for as much as 35 percent of 
the reduction in violent crime, this means that other factors 
would be responsible for the remaining 65 percent or more of 
that reduction.
    Moreover, incarceration, while necessary, is a very 
expensive option. Indeed, the costs of incarceration have risen 
steadily over the past 15 years, but perhaps of even greater 
importance, increased incarceration also comes with a human 
cost. There are now over 2 million adults behind bars in this 
country, which impacts not only the offender's prospects, but 
also that of their family members. Parents who commit crimes 
may not be the best role models, but they are breadwinners and 
are usually better than having no role model at all. Many 
studies indicate that children with incarcerated parents 
struggle and often end up turning to crime themselves.
    Today, the Bureau of Prisons constitutes 26 percent of 
DOJ's budget, and it is projected to grow. That is up from 18 
percent in 2000. This means less money for investigators, 
prosecutors, victims' services, grants to State and local law 
enforcement authorities, and other priorities. Given this 
reality, I see each prison cell as very valuable real estate 
that ought to be occupied by those who pose the greatest threat 
to public safety.
    Now, nobody disputes that there are some people who should 
go to prison and never return to society. Most inmates, 
however, do not fall into that category, and approximately 95 
percent of them will, in fact, eventually return to our 
communities.
    Congress is currently considering a number of front-end 
proposals which would reduce the amount of time that certain 
offenders are sentenced to. Most of these proposals focus on 
drug offenders and involve reducing mandatory minimum 
sentences.
    Now, let me be clear, that I believe drug dealing poses a 
threat to public safety. The potential for violence, gang 
involvement, and lethal overdose is inherent in most drug 
transactions. Nonetheless, while drug dealers ought to be 
punished, I believe the pendulum has swung too far. Too many 
low-level offenders are being locked up for 5, 10 and 20 years, 
when lesser sentences would suffice.
    Front-end reforms could involve reducing the length of 
mandatory minimum sentences for most drug offenders, expanding 
the number of low-level offenders who qualify for the safety 
valve, or some combination thereof.
    Congress is also considering back-end reform proposals, 
which would enable an offender either to get time off of his or 
her sentence, or a change in his or her conditions of 
confinement. I support these efforts too.
    Such proposals involve three things: First, expanding 
prison programs likely to reduce the risk of recidivism, such 
as educational job skills, mental health and substance abuse 
program; second, encouraging inmates to avail themselves of 
such programs; and third, along with using needs and risk 
assessment tools, matching inmates with programs based on their 
needs and providing incentives for inmates to complete such 
programs. This type of reform is important, because huge 
numbers of inmates have mental health problems, substance abuse 
issues, or both. Both conditions are associated with 
staggeringly high rates of recidivism, and prison programs 
addressing these conditions are sparse. Until that changes, 
prisons are likely to remain a revolving door.
    Many offenders, particularly those with only modest records 
who take advantage of such programs, could end up becoming 
productive, law-abiding members of society. So long as we are 
realistic and methodical in our approach, we should not give up 
on those whose lives can be salvaged.
    Now, in addition to sentencing proposals, Congress is 
considering important proposals related to over-
criminalization, mens rea reform, civil asset forfeiture, 
collateral consequences, and juvenile justice, among others. 
These are all serious issues worthy of serious consideration, 
and I look forward to working with each of you on these and 
other proposals to reform our criminal justice system.
    I thank you for inviting me here today and I look forward 
to answering any questions you might have.
    [Prepared statement of Mr. Malcolm follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you.
    Ms. Ryan, you're now recognized for 5 minutes.


                     STATEMENT OF LIZ RYAN

    Ms. Ryan. Thank you, Chairman Chaffetz and Ranking Member 
Cummings. My name is Liz Ryan and I'm President and CEO of the 
Youth First Initiative.
    I'd like to start with a story. Kalief Browder, a 16-year-
old boy, was arrested in 2010 and accused of stealing a 
backpack. He was automatically charged as an adult. He could 
not afford to pay the $3,000 bail, so he was held at the jail 
at Rikers Island. He was assigned a public defender, and 
because of backlogged courts, he was at Rikers for 3 years 
awaiting trial. He was beaten and starved by guards. For a year 
at Rikers, he was placed in solitary confinement. In 2013, the 
charges were dismissed. After he was released, he struggled to 
go to school. He took his life on June 6, 2015.
    Kalief Browder's tragic death underscores three of the most 
pressing issues we're facing in juvenile justice: First, the 
overuse of incarceration of youth. In the United States on any 
given day, there are 80,000 youth in a detention or 
correctional facility. Like Kalief, most of these youth do not 
pose a serious threat to public safety, yet they are exposed to 
harm while incarcerated, such as physical abuse, sexual abuse, 
restraints, isolation, and solitary confinement. Kalief 
Browder's case underscores the youth in adult jails in prisons 
are especially at risk.
    Research shows that placing youth in correctional settings 
increases the likelihood that youth will reoffend. Yet States 
and localities spend $6 billion a year to detain and 
incarcerate youth. By contrast, community-based alternatives to 
incarceration could more effectively serve youth and at 
substantially less cost.
    A second pressing issue is the prosecution of youth in 
adult criminal court. Kalief Browder was one of the estimated 
250,000 young people who are processed in adult courts every 
year. Contrary to popular perception, the overwhelming majority 
of youth who enter adult criminal court and even those who are 
ultimately convicted are not there for serious violent crimes. 
For example, a Baltimore study showed that nearly three-
quarters of the youth charged as adults were either transferred 
back to the juvenile system or had their cases dismissed. The 
research demonstrates unequivocally that trying and sentencing 
children in adult court decreases public safety; that is why 
the overwhelming consensus of justice systems stakeholder 
organizations, as well as the U.S. Attorney General's Task 
Force on Children Exposed to Violence, recommend against 
prosecuting kids in adult court and against placing kids in 
adult jails and prisons.
    A third issue underscored in Kalief Browder's case is the 
pervasive unfairness, inequities, and racial and ethnic 
disparities in the juvenile justice system. Youth of color are 
treated much more harshly than white youth in the justice 
system, even when charged with similar offenses. Youth of color 
are much more likely to be arrested, formally processed, 
detained in juvenile detention centers, incarcerated in youth 
prisons, and transferred to adult court than white youth. And 
it's not because youth of color commit more crime than white 
youth. Results from self-report surveys indicates otherwise. 
And new research now shows that while youth incarceration rates 
are decreasing, racial and ethnic disparities are on the rise.
    Today, we have a unique opportunity to reform the juvenile 
justice system, because there's now a rich body of research on 
adolescent development and on what works to reduce juvenile 
delinquency. Public opinion polling shows that the public 
strongly supports juvenile justice reforms, and in the last 
decade, States have undertaken reforms. Nearly half the States 
have enacted reforms to reduce the automatic prosecution of 
youth in adult court, increase the age of criminal 
responsibility, and remove youth from adult jails and prisons. 
Utah and Maryland are among these States.
    Another group of States have enacted reforms to close youth 
prisons and reallocate resources to community-based 
alternatives to incarceration. These States include Texas, 
Ohio, California, New York, Alabama, and the District of 
Columbia.
    To build on these State reforms and prevent tragedies such 
as Kalief Browder's death, Congress could take action. First, 
accelerate State reforms by supporting States and shifting 
their resources from incarceration to community-based 
alternatives; second, reauthorize and strengthen the juvenile 
justice and Delinquency Prevention Act; third, support States 
in increasing the age of criminal court responsibility to age 
18; fourth, provide adequate resources for States to enact 
these reforms; and finally, engage directly impacted youth and 
their families in these discussions and in reforms.
    Thank you for your time and consideration.
    [Prepared statement of Ms. Ryan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you.
    Mr. Tolman, you're now recognized for 5 minutes.


                   STATEMENT OF BRETT TOLMAN

    Mr. Tolman. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. I am the former United 
States Attorney for the District of Utah, a position I held for 
nearly 4 years. As U.S. Attorney, I made it a priority to 
protect children, aggressively prosecute fraud, to preserve 
American Indian heritage, and to stem the abuse of illicit and 
prescription drugs. Prior to my service as U.S. attorney, I was 
an assistant U.S. attorney. A line prosecutor in the Federal 
system, I personally prosecuted hundreds of felonies. While I 
prosecuted mostly violent felonies, I also participated in 
prosecution of white color criminals, drug traffickers, illegal 
immigrants, and others. Indeed, in nearly a decade with the 
Department of Justice, I was responsible for the prosecution of 
individuals currently serving long prison sentences, some as 
long as 35 years in Federal prison.
    I am here today because my experience reveals the need for 
Federal criminal justice reforms that are not only meaningful, 
but that are based on proven reforms carried out in States 
across this country. These reforms are the result of thoughtful 
analysis of deficiencies in the administration of justice in 
the Federal system.
    I am not alone in my support of these reforms. Former 
Federal prosecutors and other government officials have signed 
policy statements, including former U.S. attorneys, judges, and 
former government law enforcement officials that support H.R. 
759, the Recidivism Risk Reduction Act, which is before the 
House Judiciary Committee, and the Corrections Act in the 
Senate. Many of us who signed this statement are noted 
conservatives who were some of the most aggressive appointees 
in pursuing crime. Because of our backgrounds as former 
prosecutors, judges, and other law enforcement officials whose 
service for this country is focused on law and order, we have 
come to realize the criminal justice system must be reformed.
    There are two meaningful ways the justice systems needs to 
be reformed to begin addressing the issues facing us today: 
First, to address a back-end fix that efficiently uses 
incarceration resources. Accordingly, I speak in favor, 
strongly in favor of H.R. 759 and S. 467, the Corrections Act. 
Both bills enjoy broad bipartisan support. Though some of the 
bills differ, the broad prescriptions found in both parallel 
and would begin addressing the issues of overcrowding in our 
Federal prison systems immediately. These bills would better 
prepare low-risk-of-recidivism inmates back into society. It 
would help ensure that first-time offenders do not been come 
repeat offenders. It is my opinion these bills are the most 
likely of any proposal to date to not only have such an impact, 
but to have an immediate impact.
    Recidivism in our criminal system is endemic. Most of the 
low level, nonviolent offenders in our prisons are not 
rehabilitated during their incarceration, and too often return 
to prison.
    Another result is a prison budget that is consuming an 
ever-increasing percentage of the DOJ's budget. The overall 
cost of detaining Federal offenders consumes nearly 30 percent 
of the DOJ budget.
    During my tenure as U.S. attorney, many U.S. attorneys' 
offices I observed were unable to hire additional prosecutors 
and were forced to abandon law enforcement obligations and 
long-time partnerships. The number one complaint I heard from 
chiefs of police and sheriffs across my State was the absence 
and loss of Federal partnerships on important programs they 
were working.
    In 2009, California using a three-judge panel, issued 
rulings that required tens of thousands of inmates to be 
released, with no thought to rehabilitation or reduction of 
recidivism. Rather than addressing its prison issues through 
careful and deliberate means, California spent years in court 
battling to reduce its prison population. Time, effort, money 
spent on these court battles would have undoubtedly been better 
spent reducing its prison population in a safe, deliberate 
manner, as other States have done.
    In contrast, several dates, many of which are among the 
most conservative in the Nation, have moved in recent years to 
implement similar legislation found in H.R. 759 and S. 467, 
States including Texas, Rhode Island, Ohio, Georgia, North and 
South Carolina, and Utah.
    In Texas, similar legislation led to the closure of three 
prisons and a savings of nearly $3 billion, all while reducing 
the risk of recidivism from 26 percent to 4 percent in one case 
study.
    Finally, the other change that is much-needed reform is 
addressing the expansion of the Federal criminal code and 
Federal regulations and the associated disappearance of mens 
rea. Some estimates put the number of Federal regulations 
carrying criminal penalties over 300,000. It is simply beyond 
the capacity of any person, or even any organization to keep 
abreast of the number of regulations.
    With the explosion of the regulatory state, the mens rea 
requirement is all the more important. Throwing people in 
prison who not only lack the intent traditionally required for 
incarceration, but who often pose very little risk to society, 
and have a similarly low risk of recidivism, only serves to 
exacerbate the challenges of an already expensive and crowded 
system.
    As a former law enforcement official, I know firsthand that 
our current system is far too costly. It does not focus limited 
resources on the most crucial areas of enforcement and does not 
prepare inmates, especially low level offenders, to return to 
life outside the prison. These problems can be addressed by 
legislation currently in Congress.
    I urge Members of Congress to act quickly before the 
problem becomes an emergency that must be addressed by drastic, 
reactionary, emergency measures instead of deliberate, careful 
measures designed to protect the public. Thank you.
    [Prepared statement of Mr. Tolman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you all for your testimonies. 
We'll now transition to the point where we ask some questions. 
And we're going to first recognize the gentleman from Michigan, 
Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you as well 
for these hearings.
    As former vice chair of the corrections committee in 
Michigan's legislature, and during a time when I saw Michigan 
go from, if I recollect, 17 prisons to 36 prisons, rapid 
expansion, with no resultant success in dealing with crime in 
the State of Michigan, and efforts, on my part at the time, to 
speak to the need for alternatives to incarceration. And, in 
fact, being a parent of a junior higher son, who was brutally 
beaten along with his friend, by three teenagers on a bike 
path, fortunately my son didn't lose his eye. But going to the 
courtroom, and my wife and I offering to the judge an 
alternative to incarceration, namely, working on our farm 
scraping and painting a barn alongside of their victim, my son, 
and myself, in July in Michigan, and subsequently experiencing 
the reality of what it means to commit a crime and see the 
victim as human, and to experience my wife's good home cooking 
alongside, I believe would have had a better impact upon those 
three young men.
    Then ultimately the judge rejecting that and sentencing 
them to incarceration in a juvenile facility. And if memory 
serves me correct as well, two of those three offenders went on 
to offend again.
    Now, I don't know whether our alternative would have been--
it would have had a better impact, I bet it would have, but 
I'll never know, because it wasn't allowed.
    So I appreciate your testimony. We have to go to what 
works, but also what's reasonable and what we should understand 
that makes common sense.
    I'd love to ask more questions along that line, but I do 
want to go to Mr. Levin and also Mr. Malcolm, since, Mr. Levin, 
you brought up the issue of the Fair Act earlier this year. 
Senator Paul and I introduced H.R. 540, the Fair Act, to 
address many of the abuses that occur within the Federal civil 
asset forfeiture process, designed to be a good tool, we 
understand that, but it hasn't worked the way it should. It's 
become a tool for abuse as well, at least my contention. So I'd 
like to ask you, Mr. Levin, to expand on what you started at 
the final point of your testimony.
    What do you believe needs to be done at the Federal level 
to reform this process of civil asset forfeiture, and how does 
forfeiture reform fit the larger criminal justice reform 
effort? And, Mr. Malcolm, I'd like to you to respond as well.
    Mr. Levin. Well, thank you. And thank you for your time 
about----
    Chairman Chaffetz. The mic, if you can hit the button.
    Mr. Levin. Oh. Thank you very much, Congressman Walberg, 
and thank you for bringing that story about what happened in 
Michigan to the forefront here, and I really appreciate your 
commitment to this issue.
    The Fair Act is, I think, a great proposal to address some 
of the abuses with civil asset forfeiture. And just so people 
understand, there's criminal forfeiture, but civil asset 
forfeiture is where people's money and property is taken before 
they've been convicted of any offense, and in many instances, 
they're never actually charged. And there have been a few cases 
recently where Federal authorities, sometimes working with 
State authorities, just found a guy on a train, an Amtrak train 
going from Chicago to Los Angeles and took the thousands of 
dollars he happened to have that he was going to use to make a 
music video, and there's--he's never been charged with 
anything, they didn't find any drugs, there was no--and he's 
still waiting to get the money back many, many months later.
    So the Fair Act would abolish equitable sharing, which is a 
mechanism that States and the Federal Government collaborate. 
And the way, unfortunately--the good news is a number of States 
have put certain restrictions on civil asset forfeiture. New 
Mexico actually got rid of it this year. But by using the 
equitable sharing doctrine, the States are able to circumvent 
their own restrictions and get a piece of whatever funds are 
seized and then the Feds get part of it. So it's created kind 
of a mechanism for abuse and getting around State law 
restrictions.
    The Fair Act would also raise the burden from preponderance 
of the evidence to clear and convincing evidence before 
property can be kept by the Feds, and then it also reforms the 
structuring law, which has, in some instances, tripped up 
innocent people who just made a series of deposits from their 
business for legitimate reason.
    It reinvigorates the innocent owner defense. We've seen 
cases where a hotel owner faced losing their property because 
there was prostitution, or there was drug activities there, but 
they didn't know about it. So this would make sure that there 
actually is a knowledge requirement.
    And then also matching the severity of seizure with a 
crime, which recognizes that just because you're smoking pot on 
your front porch, you shouldn't lose your home; and making sure 
people, indigent people who confront civil asset forfeiture can 
have a lawyer provided if they can't afford an attorney. The 
only circumstance where they're entitled to that now is if it's 
their home that's being seized. And finally, the Fair Act also 
has reporting so that we can know in how many cases there was 
actually a conviction.
    The bottom line is, as you said, Congressman Walberg, this 
is a well-intentioned policy that was designed to take money 
and assets from, like, drug cartels before they could hide them 
and so forth, and so that is a legitimate goal, but it has gone 
too far and we do need to have reasonable restrictions to 
ensure that innocent people aren't tripped up.
    And so, finally, I think it does relate to many of these 
other issues in the sense that, first of all, like the growth 
in regulatory crimes, it's part and parcel of the over-
federalism--over-federalization of crime, over-criminalization. 
And just as we've seen the growth of the Federal Government in 
so many areas, this is just another area, and it does, I think, 
also implicate just our constitutional rights and the need to 
protect those, so--thank you.
    Chairman Chaffetz. I thank the gentleman. And I would ask 
the panelists, members only have 5 minutes, so we've got to 
be----
    Mr. Levin. Oh, I'm sorry.
    Chairman Chaffetz. --careful and a little tighter on those. 
And----
    Mr. Walberg. Mr. Chairman, I may have talked too long 
myself.
    Chairman Chaffetz. No. Go ahead. Go ahead.
    Mr. Malcolm. I'll be brief, since Mr. Levin answered much 
of them.
    Civil asset forfeiture, of course, did have good intentions 
to deprive bad guys of their ill-gotten gains in facilitating 
property, and we have, at Heritage, commented on your proposal 
and on the Fair Act.
    I would also note that one of the things that's unfair 
about the forfeiture process is a lot of it never takes place 
in front of a judge, but is handled administratively with 
rather Byzantine and harshly-enforced rules that often end up 
hurting property owners. Raising the standards, reforming 
innocent donor defense, I concur with what Mr. Levin has said.
    Perhaps the biggest thing is that, look, law enforcement 
agencies need to be adequately funded to do the vital work that 
they do. However, civil asset forfeiture provides too great a 
profit incentive, a direct profit incentive for them that can 
end up warping priorities. It also allows them to basically 
fund their own budgets without the oversight that comes from 
transparency, that comes from the appropriations process. And 
so while I fully believe that law enforcement ought to be 
adequately, indeed generously funded, having that direct 
incentive through civil asset forfeiture has had a warping 
perspective.
    Mr. Walberg. Thank you.
    Chairman Chaffetz. Thank you. Thank the gentleman.
    I now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. Mr. Chairman, on 
February 25, 2013, about a month and a half after I was first 
sworn into this office, Correctional Officer Eric Williams of 
Nanticoke, Pennsylvania, was working at the U.S. Penitentiary, 
high risk penitentiary in Canaan, Pennsylvania. He was excited 
about the job, a 34-year old young man, his mom and dad were 
proud of him, he was devoted to his friends and his family. 
That day at Canaan, he was working alone watching 130 angry and 
dangerous prisoners, when Jesse Kanui attacked him savagely and 
violently. I won't go into the details, because the Williams 
family are listening to this. Eric Williams died 2 years after 
starting at Canaan, and it was because of overcrowding and 
understaffing.
    Prisons across the United States are operating at levels 
far beyond capacity, putting both guards and inmates in danger. 
In a 2014 memorandum, the Department of Justice inspector 
general found, ``Prison overcrowding presents the most 
significant threat to the safety and security of BOP staff and 
inmates.'' The same OIG report found that prisons remain 
significantly overcrowded and face a number of safety and 
security issues. While there is a downward trend in the Federal 
prison population, as of June 2014, Federal prisons were 
operating at a 33 percent overcapacity. This is dangerous. The 
BOP's long-range capacity plan projects prison overcrowding to 
be at 38 percent overcapacity by fiscal year 2018, higher than 
it is today.
    Now, Mr. Malcolm, what do we have to do to ensure that the 
Federal prison population does not creep up to 38 percent 
overcapacity?
    Mr. Malcolm. Well, I would note, Congressman, that for the 
first time this past year, there was a small downtick in the 
Federal inmate population. Of course, overcapacity is not 
unique to the Federal system; indeed, there are probably 
greater overcapacity issues in the States.
    I believe that some of the proposals that we've talked 
about today, both front-end reform limiting the amount of time 
that certain offenders are sentenced to and also spending some 
money that we currently spend building new prisons and spend 
money to house people would be better spent providing the kinds 
of programs that would make it less likely that people would 
recidivate once they are released, and that way you can help 
reduce the overcrowding problem that exists and use those 
prison cells for the people that pose the greatest threat to 
public safety.
    Mr. Cartwright. All right. Thank you.
    And, Mr. Tolman, as a former U.S. attorney, you know, Eric 
Williams died that night. You believe that one of the solutions 
to the problem of overcrowding and understaffing is to take a 
look at over-criminalization by examining the proliferation of 
Federal criminal laws? Is that correct? Can you explain how it 
would help?
    Mr. Tolman. There are two things that would help 
immediately. One, those 130 that were in that facility that he 
was supervising, of those, there is a significant portion that 
are at low risk of recidivism, that are there because of 
expansion of the Federal criminal code, that could be in 
prerelease custody--oh, sorry. Could be sentenced to 
alternative, then released custody such as before home 
confinement for $4,000 a year as opposed to $30,000. That would 
make an immediate budget impact. And the proliferation of the 
Federal code has put people in those beds that create the 
inability of a single individual to observe 130, and that 
tragedy occurred because of that.
    Mr. Cartwright. I want to follow up with you, Mr. Tolman. I 
come from northeastern Pennsylvania, the middle district of 
Pennsylvania where a U.S. District Judge, Richard P. Conaboy, 
still sits. In '1994 through '1998, he sat as the chair of the 
U.S. Sentencing Commission. And he often talked to us, the 
lawyers practicing before him, about the hamstringing nature of 
the Federal sentencing guidelines and how it took discretion 
away from Federal judges.
    Do you agree that it makes sense to repose wide discretion 
to the sentencing capabilities of Federal judges?
    Mr. Tolman. I do agree. Federal judges should have 
discretion. Not every case is the same. A one-size-fit-all is 
not going to work when it comes to sentencing people to long 
prison sentences.
    Mr. Cartwright. Thank you. I yield back.
    Chairman Chaffetz. The chair now recognizes the gentleman 
from Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. I'm very sympathetic to this topic, but I 
think some of the testimony is a little bit, kind of you're all 
on the same page. I want you to respond, as some people might 
think the other thing.
    Our homicide rate in this country has dropped, I believe, 
by over half in the last 30 years. Arguably, one could say 
that, you know, if the homicide rate had been what it was 30 
years ago, another, maybe 8,000 or 9,000 people would be 
murdered every year, which is not nothing.
    Given that the homicide rate has dropped like a stone at 
the same time the prison population is going up, I would have 
thought the increase in the prison population ought to get at 
least a little bit of credit for that.
    I'll ask--don't want to pick out of the mix here. John 
Malcolm, don't you think that the increase in raising the 
penalties has a little bit to do with all the lives that have 
been saved as the murder rate drops? Would you give it a little 
bit credit?
    Mr. Malcolm. Yes, absolutely. I said in both written and 
oral testimony, Congressman, and in my written testimony, that, 
for instance, well-respected criminologist like University of 
Chicago Steven Levitt says that increasing incarceration 
responsible for probably 25 percent of the reductions in 
violent crime, University Texas at Austin's William Feldman 
puts it at 35 percent. Those are not insignificant numbers. 
However, that still leaves a very, very large percentage that--
where the reductions responsible for other factors.
    I would also note, although times can change, Mr. Levin 
noted that according to Pew Charitable Trusts, the 10 States 
that reduce incarceration levels the most over the past 5 years 
experienced larger drops in crime, 13 percent, compared to the 
10 States that increased incarceration the most which was only 
an 8 percent reduction in crime. There are anomalies of course. 
All I'm saying is that while incarceration is indeed necessary 
and indeed important, it may not be the only--it is certainly 
not the only and may not even be the best way of reducing 
violent crime.
    Mr. Grothman. Okay. Cause and effect, except they are only 
on the grounds that one would think if crime goes up here, 
incarceration should go up, because as crime goes up, you would 
be putting more people in prison. The next question I have for 
Mr. Ring, who recently got out of prison. I'm not sure how much 
it costs to house an individual prisoner in the Federal prison 
system, but I know in the State of Wisconsin, it is over 
$30,000 a year. Do you have any suggestions for waste or that 
sort of thing or how we could cut the costs there, or maybe by 
cutting the cost, free up money for more job-training programs 
in this sort of thing. Were there any observations of waste 
that you saw?
    Mr. Ring. There were. And this is something that has really 
struck me that in the prison system, most people who find 
waste, fraud, and abuse in every area of government somehow 
think the Bureau of Prisons is run so efficiently, and it's 
not. There was a lot of waste and abuse, and there was some 
outright fraud, some of which I know the inspector general is 
looking at, and that should occur. Otherwise, I think the way 
you can cut costs is for the lowest level of non violent 
offenders--I was at the prison camp, so these were supposedly 
the best of the best, and people who started at a medium or 
secure facility moved their way to the camp. But there were 
people at the camp who were 70 years old, or were disabled in 
some way. You could have cut costs by letting some of these 
people get to home confinement or to halfway houses.
    But I agree with what everyone has said, that money has to 
be put back into the prison to sort of treat the people who do 
need help. But there's plenty of waste there and overspending. 
And I think that has to be addressed. And I'm glad this 
committee is looking at it.
    Mr. Grothman. In general, I hate mandatory minimums. 
Nevertheless in my district, I assume it is not unique around 
the country, there's been a shocking increase in heroin deaths. 
Number of deaths just beyond belief. And despite the huge 
increase in deaths, the judges, some judges continue to treat 
it as no big deal. I was thinking, I'm not sure how many of 
these are Federal crimes, of introducing a bill making sale of 
heroin a mandatory minimum. I was wondering if you have any 
alternative as to how to deal with the explosion of heroin 
overdoses we are seeing in this country.
    Mr. Malcolm. Who do you want to answer that question?
    Mr. Grothman. Well, it was kind of one of those game shows 
you see on TV, whoever bangs the buzzer first.
    Mr. Walberg. [presiding.] The gentleman's time is almost 
expired, so answer as quickly as possible here.
    Mr. Levin. Well, certainly for those who have an addiction, 
the great news is there is more and more treatments that are 
very effective, non-narcotic injections that people can take to 
block the receptors in the brain. Obviously, people that are 
dealing, especially large amounts of heroin are already subject 
to lengthy Federal sentences.
    I did want to ask, address your issue on the murder rate to 
say, New York City, the role of policing is incredible, what 
was done under Giuliani. The murder rate in New York City fell 
by over 80 percent. It did not fall nearly as much in Chicago 
and other large cities. So I think that shows you some 
excellent policing practices such as broken windows policing, 
data CompStat and having police at the right place at the right 
time, you can actually prevent a lot of crimes.
    Mr. Walberg. I thank the gentleman. The gentleman's time 
has expired. I now recognize the gentlelady who represents my 
hometown in Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair, and thank you to the 
witnesses.
    Our criminal justice system has different effects on unique 
populations as you have raised. The sentencing project 
published a report this year examining the ways people of color 
are disproportionately affected by the criminal justice system. 
Mr. Chairman, I would like to enter this report into the 
record.
    Mr. Walberg. Without objection.
    Ms. Kelly. That report explains, ``Once arrested, people of 
color are also likely to be charged more harshly than Whites. 
Once charged, they are more likely to be convicted, and once 
convicted they are more likely to face stiff sentences, all 
after accounting for relevant legal differences such as crime 
severity and criminal history.''
    Ms. Ryan, can you describe some of the racial disparities 
you've seen in the juvenile justice system?
    Ms. Ryan. Thank you, Congresswoman. There are disparities 
at every step in the process, so young people of color are more 
likely to be arrested, more likely to be formerly processed 
instead of getting diversion, more likely to be prosecuted, 
much more likely to be incarcerated, and much more likely to be 
transferred to adult criminal court. And this is well-
documented, the Federal Juvenile Justice and Delinquency 
Prevention Act has required all States to collect data on this, 
so we see this in almost every single State.
    Ms. Kelly. Also, if my son was here, he would say much more 
likely to just be stopped in general.
    Ms. Ryan. Absolutely.
    Ms. Kelly. According to testimony, the American Civil 
Liberties Union submitted to the Inter-American Commission on 
Human Rights in 2014, sentences imposed on Black males in the 
U.S. Federal system are 20 percent longer than those imposed on 
White males convicted of similar crimes. That testimony also 
highlighted that nationwide, about 77 percent of juvenile 
offenders serving life without parole sentences are Black and 
Latino.
    Ms. Ryan, how are these disparities reflective of those we 
see in systems overall?
    Ms. Ryan. These disparities are very reflective of what we 
see. I visit facilities all the time, and you see young people 
of color in these facilities. And what we see in terms of the 
disparities of kids being in adult criminal court, that's where 
the highest level of disparities are. At the point at which 
kids are transferred to adult court or prosecuted in adult 
criminal court, and certainly they are subjected to life 
without parole and other sanctions that adults face in those 
circumstances.
    Ms. Kelly. Mr. Levin, I see you shaking your head. Did you 
want to add anything?
    Mr. Levin. Oh, no, I certainly would agree that this the 
data certainly shows that there are disparities. I think one of 
the ways we often think about it is, particularly in the area 
of drugs, and this goes back to what I was saying about 
policing, I think it is very important to have the police in 
the neighborhoods where the most crime is. But we need a 
different type of policing. And so one of the challenges is, of 
course, if a youth or other person has drugs on them, they are 
more likely to get caught if they are in an area where there is 
more police. Yet, we need the police in those areas that have 
high violent crime, which are, in many cases, areas that have 
large minority populations. So the challenge then is to change 
the type of policing that we are doing.
    We have people like David Kennedy with the National Network 
for Safe Communities, we are doing call-ins, Operation 
Ceasefire in Cincinnati, High Point North Carolina, these have 
had great impact by working with ministers, grandmothers, 
bringing the community together, getting people out of gangs, 
giving them positive opportunities.
    Once someone is, for example in New York City now, if they 
do find marijuana on someone, they are typically given--they go 
to a desk--they get a cita--they are brought to a police 
office, it is a desk appearance. They don't go to jail. So 
there are better ways to deal with it, and that can help reduce 
some of the disparities handling things in a reasonable manner, 
particularly when they are very low-level offenses.
    Ms. Kelly. Mr. Ring, your organization, Families Against 
Mandatory Minimums, has called for policymakers to further 
reduce the disparities in sentencing between crack and powder 
cocaine; it also calls for existing reductions to be made 
retroactive. Why might it be important to further reduce the 
disparity in sentencing and have that disparity reduction apply 
retroactively to people who were incarcerated prior to the 
change?
    Mr. Ring. Quite simply, Congress, when it passed the First 
Sentencing Act and made the change in the crack law to lower 
the disparity between crack and powder cocaine, it admitted a 
goof. You had Members who were around then saying we didn't 
know what we were doing, we just pulled numbers out of the air, 
and we passed this disparity. Mind you, the Reagan 
administration asked for 20-to-1 disparity, and it was the 
Congress that moved it to 100-to-1. So there was sort of a pox 
on everybody's House there. So Congress passed the law, made 
the change, but it didn't make it retroactive.
    So now you have people serving decades for--decades-long 
sentences that Congress admits were a mistake. So until you 
make it retroactive--I know the President is trying to do some 
of this piecemeal through commutations, but Congress really 
should act and get all of those people fairer sentences, 
because it is the height of injustice for them to serve those 
when they know anybody sentenced today is going to get a much 
lower sentence.
    Ms. Kelly. My time is up. My colleague is running a tight 
ship.
    Mr. Walberg. I thank the gentlelady. And I recognize now 
the gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Ryan, you were indicating that people of color, I 
guess, are incarcerated at a much higher rate, that's what your 
study shows.
    Ms. Ryan. There have been studies that have been done in 
all of the States, showing that young people of color at every 
stage in the process, so arrest, formally processing in the 
system instead of being diverted out of the system, detention, 
conviction, incarceration and transferred to adult court.
    Mr. Meadows. So in your analysis, where would you say the 
problem is? Is it at the law enforcement side, the prosecuting 
side or judicial side? I mean, obviously, you're saying that 
the problem is everywhere, so are you indicating that it's all 
law enforcement prosecutors and the judges that are being 
biased this way?
    Ms. Ryan. Well, what we're seeing, the study showed that 
there is bias in the system by all of these stakeholders. And 
so law enforcement tend to over-police and process young people 
of color formerly, whereas White youth are not processed in the 
same way. They have a different justice system. Simply put, we 
have two justice systems: We have one for White people who have 
means and one for young people of color who do not.
    Mr. Meadows. So your contention then is that from the 
judicial side of things is that judges are making 
disproportionate sentencing based on their purview. Would that 
be your contention?
    Ms. Ryan. Yes.
    Mr. Meadows. All right. So Mr. Tolman, let me come to you 
then, because what Ms. Ryan is saying is that judges have great 
latitude, and according to what you just shared with Mr. 
Cartwright is that you think that judges should have greater 
latitude. Would that not exacerbate the problem that Ms. Ryan 
has just----
    Mr. Tolman. I appreciate the question. Congressman, I would 
answer it a little bit differently than Ms. Ryan would. 
Judges--I don't believe that judges, in this day and age, are 
largely driven by a bias in their sentencing, but instead, you 
see as a result of minorities achieving higher sentences most 
often come as a result of they are arrested more often, their 
records look worse. When they get before a judge, they have 
usually gone through several proceedings that they may not 
otherwise have gone through, and then judges feel that they are 
tied. And in the Federal----
    Mr. Meadows. But they are not tied. You were just saying 
that they should have discretion. I guess what I'm saying is, 
I'm here, I love my law enforcement officers, I love my U.S. 
attorneys, and I'm perplexed because what some of them say is 
that we need to prosecute more, and we need to arrest more, and 
that they arrest people and they get out of jail free and they 
go another way. So I'm very perplexed, Mr. Tolman, because if 
we're going to give our judges more discretion, would that not 
give the probability of sentencing that was not uniform or 
fair?
    Mr. Tolman. I don't believe so.
    Mr. Meadows. Okay. So I assumed you would go that way. So 
let me take you to a U.S. attorney situation in my district 
where they were charged with felonies, they pleaded them down 
to misdemeanors where they went before a magistrate judge, and 
then ended up--I've got a constituent who is going to jail for 
23 months for hunting with a spotlight of which nothing was 
shot, and a hunting license that had expired for 24 hours. He's 
going to jail for 23 months. That was the discretion of a 
Federal judge. So how can we say that more latitude with our 
judges would promote fairer sentences?
    Mr. Tolman. First of all, I don't think judges feel they 
have discretion now. The sentencing guidelines, while not 
mandatory, are certainly still pervasively controlling what the 
judges do. In those instances where an individual has an 
offense, there are very distinct recommendations that come as a 
result of the sentencing guidelines.
    Mr. Meadows. Well, those were maximum--in this particular 
case, a maximum of 6 months, but they stacked misdemeanors so 
that he went to jail for a longer period than what you would 
think a normal misdemeanor would have. Do you think that's 
fair?
    Mr. Tolman. I don't know the case.
    Mr. Meadows. Well, do you----
    Mr. Tolman. At first blush, I do not believe that that 
would be a fair sentence.
    Mr. Meadows. I agree.
    Mr. Tolman. It is the point that we are trying to emphasize 
that the Federal system is filled with more of those than there 
are of Al Capones. And because of that, they are taking bed 
space that is required for those that are more serious.
    Now the mandatory minimums have added to that the emphasize 
on guideline ranges that are out of sync with what should be 
the punishment are creating that. And so, I guess I agree with 
you and say that it will take a lot more time with true 
discretion and statutes that don't promote over-punishment 
before judges start to sentence more properly tied to what the 
seriousness of the offense is.
    Mr. Meadows. I thank the chairman. I yield back.
    Chairman Chaffetz. [Presiding.] I thank the gentleman. I 
now recognize the gentlewoman from Michigan, Ms. Lawrence, for 
5 minutes.
    Mrs. Lawrence. Thank you. This is a discussion that's near 
and dear to my heart. I am a representative, I represent 
Detroit, and also have some of the most wealthiest communities, 
not only in Michigan, but in the country.
    I just want to give some statistics. It is estimated that 
2.7 million children under the age of 18 have a parent in 
prison or jail. That means 1 in 28 children in the United 
States has a mother, or father, or both in a lock-up. Recent 
statistics shows that the United States holds 25 percent of the 
world's prison population, while we're only 5 percent of the 
world's population or people.
    Most inmates are parents of children 18 years of age--of 
children under 18 years of age. Two-thirds of incarcerated 
parents, two-thirds, are nonviolent offenders, often locked up 
for minor drug-related charges. They make up the majority of 
the parents who are in prison, and they and their children are 
the ones the criminal justice reform would most affect. The 
lack of parental contact engagement during imprisonment hurts 
those children, it has been proven psychologically and 
socially.
    So I have two questions, first to Ms. Ryan. What is the 
impact, according to the studies that you've looked at, to the 
educational social development of children growing up with a 
parent in prison?
    Ms. Ryan. I can't speak to all the studies, but a vast 
majority of them have shown that those young people are further 
behind in school than their classmates, and that there is an 
increased likelihood that those young people who have a parent 
in prison could end up in the criminal justice system as a 
result.
    Mrs. Lawrence. My ranking member yesterday, in his opening 
comments, referred to three generations serving time in prison. 
It's a statistic that I think our criminal justice system owns 
some responsibility.
    Mr. Ring, you personally experienced this as a parent. I 
would like to hear your comments. And what could be done--if 
you could speak in a positive way, what do you think we can do 
to help the relationship between children and their parents 
during incarceration, and what are we doing right and what 
should we stop doing?
    Mr. Ring. Well, there's a couple of things, it's the 
hardest part of being in prison currently for everyone. I am 
thankful that I had a shorter sentence relative to most. I saw 
people in the visiting room after months past where you could 
see the relationships were falling apart, the kids weren't 
running to the parents anymore. And it's really hard when you 
leave that visiting room to go back on to the compound, and 
your kids are losing their relationship with you, so it is very 
hard.
    I think the prisons aren't as cognizant of that as they 
should be. They pay lip service to it, but there are things 
like the 500-mile rule, which is you're supposed to be placed 
in a facility that's within 500 miles, but that's as the cock 
crows rule. It doesn't mean driving miles. So we have people 
from Rhode Island who are at Cumberland, Maryland. They almost 
never got to see their kids. Other things, like when I got 
there, I was devastated to not have my daughters with me, I 
asked if we could sort of put together a fatherhood caucus, 
because they had AA and NA. I said, could we get a fatherhood 
support group so that the older guys could tell the newer guys 
how to stay in touch, how to space out your phone minutes, that 
sort of thing. We only had one therapist, and so she didn't 
even respond to that inquiry..
    So I think there are things that can be done. And I think 
as part of the programming, that should be part of it, because 
in some cases you have strong relationships that wither, other 
cases you don't have strong relationships, but it is a great 
time to reinforce the people who are there. This should be your 
responsibility when you go out.
    Mrs. Lawrence. I agree with you. There is a responsibility 
in our criminal justice system to recognize the impact on those 
who are not incarcerated, the families. If we truly want to 
break the chain and reduce the amount of people that we 
imprison, along with all the other reforms, this must be a 
critical part of it. And I yield back my time. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from 
Oklahoma, Mr. Russell, for 5 minutes.
    Mr. Russell. Well, I appreciate not only all of the 
fantastic information as put forth here, but the scope of the 
problem and the fact that in a bipartisan nature we recognize 
that this is a national problem, regardless of politics or 
party.
    I want to address an area that I have not heard addressed 
much. Senator Booker, in his testimony yesterday, mentioned 
upwards of 97 percent, I believe, of all adjudication of 
justices done by plea. And I don't know the accuracy of this. I 
don't have the data, but it brings out a major point. A person 
receives a charge, and he gets publicity. Consequently, his 
employer fires him over the publicity. Then they have an 
inability to make bail because they don't have work, and then 
they can't obtain the best counsel because they can't afford 
it. The counsel that they do obtain then, in a deal with the 
prosecutor, is suggested to make the plea, or roll the dice 
with the jury on an exponentially higher outcome of sentence. 
Faced with this duress, what we potentially see, and I would 
argue actually see, is the locking up of innocent people.
    How do we address that? Because we've not seen or heard 
anything along that line, and I welcome input from anyone on 
that issue?
    Mr. Tolman. I'll volunteer very quickly that the 
promulgation of disproportionate penalties and some mandatory 
minimums that are so extreme that you have that very, very 
scenario that you described is driving that. And yet, if you 
were to make punishment more commensurate, and not punish an 
individual for going to trial to test the evidence against 
them, I think you would have a system that is intrinsically 
more fair, and that's part of the reform that has to happen on 
the front end, but for those that are in that system, that are 
the 97 percent that did it, we better have immediate back-end 
reform right now, or else they will continue to serve those 
very long, disproportionate sentences.
    Mr. Malcolm. Congressman, my colleague, Mr. Tolman during 
his testimony, talked about mens rea reform and the importance 
for adequate mens rea. I think that's also a part of this. 
There are a fair number of crimes, particularly regulatory 
crimes, but also statutory crimes, where in order to convict 
somebody, you do not have to prove that there was any knowledge 
or intent to violate the law or even as somebody engaged in 
something that is intrinsically morally blameworthy, and the 
fact that Federal prosecutors have the pressure and say, look, 
I don't have to prove what you knew about the law, intended to 
violate the law. I just have to prove that you did the act that 
resulted in the crime, even if it was a mistake or a complete 
accident. Therefore, you're facing a very heavy penalty, unless 
you decide to plea bargain. That's also part of the answer to 
this.
    Mr. Levin. It is an excellent point that you make and that 
you ask about and there is data showing people that day-in-jail 
pretrial, before their trial, end up with longer sentences and 
are more likely to go to prison. So some States, like Colorado 
and New Jersey, have adopted bail reform measures to ensure 
people who are low risk can get out pretrial, even if they 
can't afford a bail bond through pretrial supervision and a 
personal bond. It is kind of like being on probation, so they 
are held accountable to make sure they appear, but just because 
they don't have resources doesn't mean they are not able to get 
out.
    And then also, strengthening, of course, indigent counsel 
and showing that there is quality representation. We have a 
pilot program in Texas going on kind of like school choice 
where clients can choose their counsel from a list of qualified 
attorneys.
    Mr. Ring. I would just say as somebody who was prosecuted, 
the leader of this conspiracy that I was a part of what was 
sentenced to 4 years, 4-1/2 years, and I came later and I had 
been cooperating for a couple of years. When the government 
came to me they basically said if you cooperate and implicate 
these people, you'll see what you will get, which is no time. 
If you don't, the range I was looking at was 19 to 25 years of 
prison. And I had real law and order, salt of the Earth people, 
friends who believed in my innocence as I did, which is why I 
went to trial, so you just gotta take the deal, you have to 
take it for your kids. I said, you don't think I'm guilty. They 
said it doesn't matter, you can't do that. You see that a lot.
    And I don't know how anyone who thinks that there aren't 
innocent people in jail don't believe that people take those 
deals. You see the statistics. When the Innocence Project 
exonerates people with DNA in these rape cases, half of those 
people pled guilty. So you know it happens, and it's a problem, 
and it's a problem because there's not enough discretion for 
judges to counterbalance. I was lucky that my offense did not 
carry a mandatory minimum. That would be tougher. At least I 
knew I can have a judge who was going to hear the evidence. 
It's more proof to why you need to have more balance in the 
system.
    Mr. Russell. Thank you, Mr. Chairman. I yield back my time.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Virginia, Mr. Connolly.
    Mr. Connolly. I want to thank you, Mr. Chairman, and 
especially you, Mr. Cummings, for these remarkable hearings. 
Yesterday and today, profoundly thought provoking, something 
that hasn't had the kind of scrutiny it needs. The American 
system of justice from soup to nuts is, in many places, broken. 
And the word ``justice'' is in all lower cases. You just 
mentioned one, Mr. Ring, and I know my friend from Oklahoma 
brought it up yesterday with our two governors, plea bargaining 
was supposed to be an efficiency. It has now become a tool that 
incarcerates people who are innocent, not all, innocent and 
guilt are irrelevant sometimes to the process. That isn't 
justice, that's a perversion of justice. You're quite right, 
people then have to weigh the gamble, take the lesser of two 
evils, even though I'm innocent, because the risk of going to 
trial and losing is too great. The fact that prosecutors who 
may believe you're innocent, nonetheless pursue that is a 
perversion of justice and shame on them.
    Sometimes prosecutors get into the habit--I know, Mr. 
Tolman, you might recognize this--where what's important is a 
scalp on the wall, irrespective again of innocence or guilt. 
I'm gambling I can win this one, that's all that matters, 
that's the evidence. Not about whether--what about the 
innocence of the person in front of me? Not everybody, of 
course not, but it happens all too often, and there are so many 
other things.
    But I want to ask you about two in particular. One has to 
do your story, Ms. Ryan, solitary confinement for a youth, it 
seems to me that that would be ought to be a practice normally 
that is very infrequent, and only with manifest behavior that 
is otherwise completely uncontrollable, danger to himself, 
herself or others, and for limited periods of time. You 
described a tragic story of a young man who ultimately 
committed suicide, presumably not unrelated to his very unjust 
incarceration in terms of what he was being charged with, and 
it was a failure of the criminal justice system to get around 
to him because he had to languish in Rikers. How often out of 
solitary confinement be a tool in the prison setting for young 
people?
    Ms. Ryan. That's a great question. In Kalief Browder's 
case, he was charged with a crime, so he was pending trial, and 
he was being abused by guards. They placed him in solitary 
confinement, so this is pending trial. We know that it is used 
often in the adult system for children in the form of 
protecting these children, and it is profoundly harmful to 
those young people to their development. It is also used 
unfortunately in the judicial justice system, and there are all 
kinds of euphemisms for solitary confinement.
    I had an argument with a Department of Corrections head 
here in the District one time because he called it a time out, 
and I called it 5 days in the hole is solitary confinement. 
Unfortunately, we don't know how often it is used, and that's 
something that Congress could fix by requiring States to 
provide data.
    Mr. Connolly. The fact that we would subject a young person 
to solitary confinement for his or her protection, of course, 
tells us a lot about the personal environment that we would 
need to do that, understanding that there are consequences that 
flow from doing that, the isolation and so forth.
    I'm running out of time, so I want to ask one more question 
of you, Mr. Tolman. Washington Post just did an interesting 
series on power parole boards, not trained, often political 
appointees, capricious decisionmaking, God only knows whether--
there was nothing systematic and analytical about how we look 
at your case and arrive at a just decision. Your experience, 
and if you'd comment on that in the remaining 27 seconds.
    Mr. Tolman. Thank you. There is no parole in the Federal 
system, but there is a need for that role if it was 
administered fairly, which is why the bill that has been 
introduced, H.R. 759, would actually take that out of the 
discretionary. What it would do is it would say we are going to 
assess the risk of recidivism and reassess the inmate as they 
go and let them earn time into home confinement. So you take 
the parole board of out of that and some of those problems that 
came from it.
    Mr. Connolly. Thank you.
    Chairman Chaffetz. I would note to the gentleman from 
Virginia, Mr. Connolly, that please have a look at the--Cedric 
Richmond has a piece of legislation that I cosponsored, we 
introduced it, that deals with solitary confinement requires a 
study in reporting so we have these types of statistics, 
because you just worry, there are horror stories out there and 
we never hear about them, and this piece of legislation is part 
of a package that we are encouraging.
    Mr. Connolly. I thank the chair, I most certainly will. I 
also want to say one hopeful thing about this process you and 
the ranking member have gotten underway here, but in terms of 
the broader conversation, too, that's hopeful to me is actually 
on the right, on the left, Republicans and Democrats, we're all 
actually beginning to reexamine what we thought was taken care 
of from top to bottom. And I think that's a really healthy 
sign, so hopefully we will continue to look at issues like 
solitary confinement, but also, the broader issues that 
challenge American justice. Again, I thank you, Mr. Chaffetz, 
and you, Mr. Cummings, for leading us down this path.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. I likewise want to give 
a sincere thank you, Mr. Chairman to you and to our witnesses 
for this tremendously important hearing. I typically don't do 
this, but I do want to take just a moment and just share a 
little of a personal experience with all of this, because it 
really hits home just from the last couple of months with me. 
I'm from Georgia, and, of course, Georgia has been known in the 
past as being extremely tough on crime, and frankly, that 
toughness over the years has not worked, it has cost the State 
tons of money, and our jails have been filled to the brim. And 
under the leadership of our current Governor, Governor Deal, he 
has taken this issue on personally, actually campaigned on this 
issue as well.
    And as a result, Georgia has been, as you know, has been 
mentioned here in the last couple of days, on the forefront of 
implementing some critical, momentous, front-end and back-end 
reforms to our criminal justice system and we are seeing 
incredible results.
    One of the programs, or at least part of it involve some of 
these non violent offenders, particularly who have drug 
problems, to be able to participate in court-supervised 
rehabilitation programs that involve a great deal of 
accountability. It is an 18 to 2-year--18-month to 2-year 
program. There's, as I mention, a lot of accountability, these 
people get jobs, they do do community service, they have 
regular drug tests, they are involved in evidence, program 
evidence-based treatment programs, that involve both the faith-
based community as well as others. And there's consequences if 
any of this stuff lapses. The consequences are not just 
designed for arbitrary punishment, but they are designed to get 
people back on their feet so that they can live a drug-free 
life.
    And just last May, I had the distinct privilege of speaking 
at one of the graduation ceremonies. I have heard of this 
program in Georgia for several years, but I had the first 
hands-on experience speaking at one of these graduation 
ceremonies. And I tell you, I was moved to the core. In fact, 
there was not a dry eye in the place as one of these 
individuals after the other after the other gave testimony of 
what their life was and what it has become, and what these 
programs have meant. And then family members and friends also 
testified as well. At the end of this program, these people had 
literally 2 years under their belt drug free, as they've been 
in the workforce, all these kind of things. It was incredibly 
moving.
    One of the statistics that came up, I believe it was 
yesterday with the recidivism issue, as I think most of our 
prisons see people, once they are released, back in prison 
within 2 years. I mentioned results in Georgia, we are seeing 
through many of these drug court-type things across the Nation. 
For that matter, the recidivism rate is 25 percent; in Georgia, 
it is even less; in Barrow County, where I spoke a couple of 
months ago, it is significantly lower than even 25 percent.
    So I guess all of this is just--I'm so grateful that we're 
having this hearing, and again, just send sincere thanks to 
each of you for being on the front line of what you're trying 
to do, and for, chairman, your leadership in bringing this 
forward.
    Mr. Levin, let me just ask you, I am sure you have dealt 
with this, I apologize for coming in late myself, but what 
alternatives to prison do you see? I'm sure you're looking at 
Georgia and Texas, some of these other places, but to reduce 
recidivism, get these people's lives straightened out?
    Mr. Levin. You hit the nail on the head, Congressman, drug 
courts, the Hawaii Hope Court, which is a similar model but it 
is more targeted just towards weekend jail for those who fail a 
drug test. And then, even actually some of those who can't 
acquit to that and ultimately go into the drug court where they 
get more significant treatment.
    Mental health courts, veterans courts. And other 
alternatives, including electronic monitoring, various mental 
health treatment programs, both inpatient and outpatient, for 
people with that problem. So house arrest has been mentioned. 
So there is a whole host of alternatives. And I think one of 
the things we ought to look at is enabling the Federal system 
through perhaps, you know, the Federal system could compensate 
the State, but to be able to place individuals whether in a 
halfway house or one of the other programs that is actually run 
by a State or non profit, rather than--it is very hard from the 
Federal Government, particularly in places where there may not 
be that many Federal offenders, to try and reinvent the wheel 
of everything States are doing, so why not have a way for the 
Federal Government to partner with States and nonprofits and 
use some of the same programs.
    Mr. Hice. Excellent. I'm out of time, but again, I hope 
this committee continues to look a cost effective ways of 
turning lives around as opposed to just punishment, and I thank 
you.
    Chairman Chaffetz. Thank you. Georgia has done some very 
significant things. We have tried very hard to get the Governor 
of Georgia to come join us, but through scheduling on both 
ends, that we were unable to do it. But Georgia has really 
helped lead the way and they should be thanked for that.
    I now recognize the gentlewoman from Illinois, Ms. 
Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman. I'm so glad that 
we're having this much-needed debate in our country, and 
especially in this committee, on need for reforming our 
criminal justice system. I really want to go back to the 
discussion on drug offenses and mandatory minimum sentencing.
    Mr. Chairman, I have in front of me a statement offered to 
this committee, to this hearing from Human Rights Watch that 
echoes many of these concerns. I would like this entered into 
the record.
    Chairman Chaffetz. Without objection, so ordered.
    Ms. Duckworth. Thank you. Regarding prosecution and 
mandatory minimums, Human Rights Watch explains that, 
``mandatory drug sentencing laws has given prosecutors too much 
power. They are able to strong-arm drug defendants by offering 
them a choice, significantly shorter prison terms if they plead 
guilty, and excessively severe sentences if they go to trial.'' 
Coerced pleas and disproportionately harsh sentences should not 
be part of the Federal criminal justice system. And my 
colleague from Oklahoma began this discussion on that already. 
I would like to further this sort of power relationship.
    Mr. Ring, you said that prosecutors in your case initially 
asked for a 20- to 27-year sentence, that seemed incredibly 
excessive for a non violent offense. I have to wonder, you came 
into the system as someone highly--fairly highly educated, a 
lot of experience, not easily intimidated, I would think, and I 
just wonder what your experience was in term of facing that 
potential mandatory minimum, and then thinking about the folks 
you saw when you were in prison. And if you think about someone 
whose entire life experience begins with stop and frisk, and 
unnecessary police stops, and a law enforcement system, while 
we have great law enforcement officers, but a system that is 
skewed, especially toward minorities, what that does to the 
power relationship between the prosecutor and the defendant?
    Mr. Ring. Thank you. Let me just say I try to always make 
clear that my case is definitely unique. I'm a congressional 
staffer, I'm a lawyer, I worked for sentencing reform. I knew a 
lot of these issues, and so it was certainly a different 
situation. The reason I usually raise it, it's just because I 
want to show how much power the prosecutors have without 
mandatory minimum. Because they were able to threaten that 
sentence because the guidelines are still so high too, and the 
guidelines are usually driven by the mandatories. So when you 
lifted the drug mandatory minimum, the white collar folks on 
the commission said we have to lift these up, too, to make them 
have parity. So the guidelines are high too.
    The people I saw in prison look nothing like me. I mean, I 
hope it is clear, and I don't think everyone knows, there is no 
Club Fed. I was definitely a minority in the prison, most 
people are brown and Black. And that's another problem in terms 
of getting programming to such a disparate group of people. But 
these folks faced mandatory minimums, they didn't know 
anything. They knew nothing about sentencing laws. It is such 
a--the divorce between what members or politicians think is 
going to deter a criminal as if they are listening--if you pass 
a 5-year mandatory minimum, the next year, they are going to, 
oh, I'm not going to do that anymore because they just 
stiffened the penalties. There is no idea.
    Most of these guys made stupid mistakes without any idea of 
what the punishment was. They just didn't think they were going 
to get caught. So you can make the severity off the charts. You 
can do a life sentences for jaywalking. It is not going to stop 
it. So it is a problem. These people don't know, there is a lot 
of bad lawyering. Some of these people had really terrible 
representation. And so the people who can't afford it--and I 
don't know anybody who can afford to go to trial today--it is a 
huge problem, and so I think that's why you see so many lower 
level people who have no resources just cave to the system.
    Ms. Duckworth. Thank you. Mr. Tolman, with your experience 
as a defense attorney, have you seen defendants discouraged 
from exercising their right to a trial? I want you to speak to 
this power relationship, because it seems like the way this is 
set up, it just gives excessive power to the prosecutors and 
that you have a defendant from a community where they see all 
their buddies or their friends who get stopped and frisked and 
minor drug offenses end up in jail for long periods of time, I 
would think that that power relationship is just excessive.
    Mr. Tolman. It is extreme power, we could--as Federal 
prosecutor, I could control what the sentence would ultimately 
be because of our ability to wield the particular statutes we 
wanted because of the guideline ranges, because of enhancements 
we could apply, and we control the ability to also go down from 
those guideline ranges. It influenced me as a defense attorney 
so that my practice currently, I tell many of my clients, we 
need to be successful prior to you being charged, or we need to 
be cooperating in a way, or we need to show the government that 
we are going to be very different than just an individual that 
they prosecute and goes to trial. I cannot, in good conscience, 
advise any of my clients at this point to go to trial, because 
their resources and the evidence and the penalties present 
incredible obstacles to exercising your constitutional rights.
    Ms. Duckworth. Thank you. I'm out of time, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from California, Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Chairman Chaffetz and Ranking Member 
Cummings, for these hearings on criminal justice reform. My 
first question is to the entire panel. Do any of you believe 
that it is wise to spend even $1 of precious taxpayer resources 
to arrest, prosecute and lock people up for marijuana crimes, 
especially when multiple States have legalized marijuana? Okay, 
I take that as a no. Thank you.
    I would like to focus on recidivism.
    Mr. Levin. Yeah, obviously, there are people that--if 
you're dealing in huge amounts of marijuana as part of a cartel 
or something, but I think it has certainly been encouraging to 
see, even in States, we can debate whether it should be 
legalized or not, but certainly, even in States that haven't 
legalized, they are diverting people. In Houston now, they are 
bringing them to the police station, they can do 8 hours of 
drug education or community service, so bringing small 
marijuana offenders to jail is, I think, a wasteful use of 
human resources.
    Mr. Malcolm. If I could also quickly jump in. I think that 
very, very few small marijuana possessors are prosecuted 
Federally. I do think that there are Federal laws that are way 
overreaching, perhaps in this area too, but I'm not a big fan 
of unequal enforcement to Federal laws. If you're going to have 
them, I believe that they should be equally enforced.
    Mr. Lieu. I'd like to talk about recidivism. Mr. Tolman, 
you had testified that within 3 years of release, nearly 67.8 
percent of prisoners are rearrested, and then within 5 years, 
76.6 percent are rearrested. I dealt with this when I was in 
California State legislature, we had a massive prison 
overcrowding problem. When you looked at the facts, it wasn't 
that California had longer prison sentences, we are about the 
middle in most States. But you get a massive recidivism rate, 
and we are locking people up for nonviolent offenses in prison.
    So I'd like to turn to Mr. Ring, and I listened and read 
your testimony, and it is a stunning indictment for the lack of 
rehabilitation program for the Bureau of Prisons. And I think 
you testified that you saw little to no real rehabilitation in 
prison, that most inmates get classes, will sign their names to 
the attendance list during the week so the administration 
thought they went, and that the most glaring deficiency was the 
lack of any kind of cognitive therapy or anger management 
counseling.
    Then your conclusion seems to be sort of odd, because you 
go from that and you conclude that, I think the only way 
Congress can improve public safety while reducing cost is to 
reform sentencing laws, especially mandatory minimum sentences. 
I fully support you, but I would have thought you would have 
said the important thing to do is reduce recidivism, and that 
means increasing rehabilitation programs, making sure that 
people don't recidivate. Because if you don't do that, what 
will happen is, and you reduce sentencing laws, instead of 
having a person serve two longer sentences, they'll serve four 
shorter ones. I don't think you do very much to reduce prison 
overcrowding and reduce incarceration. I'm just very curious 
how you go from the first part of your testimony to that 
conclusion, rather than saying we should focus on recidivism 
reduction.
    Mr. Ring. Okay, that's a fair question. I never--I'd always 
hear the term ``warehouse,'' that prisoners were warehoused in 
Federal prisons or in prison, and I didn't know what that meant 
until I got there. You are just sitting there and there is 
nothing happening, so you are just looking at the clock and you 
are waiting to go home. There is no programming or anything 
like that so you find ways to make yourself busy.
    As I said, if you had any skills, they atrophy, and you 
don't gain any new ones. So to me, being there itself is a 
complete waste, and letting people get back into their lives 
before they lose touch. People say what's an app? They are 
going to come out and have no idea what the world is like when 
they get out. So to me, the thing that you can do immediately 
is right-size some of these sentences. But it would be a 
mistake to think I don't think you have to do both. You 
absolutely, while they are there, however long they are going 
to be there, have programming. And one thing I think the 
problem is that if we just said let's increase programming 
across the board in Federal and State prison, that's a lot of 
money. We are going to have to own up to the fact that they are 
going to take a lot of resources to have the kind of 
programming that you want, and I think you have got to couple 
that by getting some savings from sentencing reform.
    Mr. Lieu. Thank you. When I was in California State 
legislature and touching your point about having programs that 
deal with anger management and behavior therapy, I got an 
increase in funding to arts and corrections programs. And arts 
and corrections programs have been shown to reduce recidivism. 
It actually, in fact, teaches anger management and behavior 
therapy in a different sort of way. Nonprofit actors came, run 
by Tim Robbins and others who were doing it for free for quite 
a while and then scaled them up. It seems like we should do 
this in our Federal prisons, in addition to getting rid of 
mandatory sentences. It is my belief that we need to really 
reduce the recidivism rate if we actually really want to reduce 
the overall prison population.
    With that, I yield back.
    Chairman Chaffetz. I think the gentleman. I now recognize 
the gentlewoman from the District of Columbia, Ms. Norton, for 
5 minutes.
    Ms. Norton. Thank you. I want to thank you and the ranking 
member for focusing on what is a really a rising bipartisan 
issue in Congress, I'm pleased to say. Mr. Lieu asked a 
question I was obligated to ask. I take it none of you would 
say it makes much sense and do not find prosecutors thinking it 
makes much sense to prosecute people for lower amounts of--for 
possession of lower amounts of marijuana. Is that the case?
    Mr. Malcolm. I gave the answer that I gave before. I think 
that it makes a very compelling argument, that there shouldn't 
be a violation of Federal law. But as a general matter, I 
believe the Federal laws, if they exist, should be enforced 
evenly and that----
    Ms. Norton. Well, so let me take you to the next answer, 
the harm that is done is not that there is any prosecutor in 
his right mind has so little crime that he goes after low level 
marijuana possession. The harm that is done is the arrest 
record. And what we find is throughout the United States, 
overwhelmingly the only, virtually the only residents, here in 
the District of Columbia, 90 percent, of those who get arrest 
records for possession of small amounts of marijuana are people 
of color.
    For a young man, especially of color, this is a bar for the 
rest of his life. Leave aside that it's marijuana, leave aside 
that it's not a conviction. What would you do, up front, about 
arrest records for low level offenders like this who are 
possessing for their own habit. By the way, this is a college 
town, half of those, the marijuana rate, smoking rate is the 
same for people of color and White people. We've got five or 
six universities in here. I don't remember seeing anybody get 
arrested.
    Mr. Levin. I think citation certainly is a way to give 
someone--in Florida, they are doing juvenile and adult civil 
citation, so giving someone a citation certainly can address it 
rather than arrest them. And then the other issue----
    Ms. Norton. That citation, I take it, wouldn't be on his 
record, so the employer would say, well, you got a drug arrest, 
that's enough for me.
    Mr. Levin. Provided probably that they complete whatever, 
they show up in court, they do whatever they are supposed to 
address the citation. The other thing is enabling people to get 
records sealed, if they do have a record, and we passed 
legislation in Texas to allow nondisclosure, so that way you 
can say on an employment application you haven't been convicted 
because you obtained an order of nondisclosure.
    Ms. Norton. Thank you. Senator Booker was here, and 
testified about the REDEEM Act. Very important juvenile 
expungement automatic. People, as it were, earned their way out 
of jail, simply by paying their time. Then they faced the 
problem of additional earnings. Have you thought about a way to 
earn your way to expungement or sealing of your record. For all 
we're doing, black boxes and the rest, when you see choices 
between people who have no record and people who do--whatever 
the merits of the people who have something of a record, that 
is a black mark. Is there a way, have you thought about a way 
for a person to actually earn expungement of that record?
    Mr. Levin. Sure, and I wanted to distinguish in Texas, 
expunction is reserved generally if you are innocent, if you 
are acquitted, or the case is dismissed. But nondisclosure is a 
bit different, because the records aren't destroyed but law 
enforcement can still see them, prosecutors, certain licensing 
agencies, things like doctors, things that are very sensitive. 
But if you have a nondisclosure, which you can get, even if you 
are guilty, that means you have your records sealed after a 
certain number of years of living crime free, you can say, when 
you apply for jobs, that you haven't been convicted. Likewise, 
when you apply to rent an apartment. And we have also, by the 
way, passed legislation in Texas to say employers and landlords 
can't be sued for hiring and renting to ex offenders.
    Ms. Norton. Doesn't something of that kind serve as a kind 
of incentive not to commit more crimes? Has it been shown in 
any way? Is there any evidence that could then be used in other 
States?
    Mr. Levin. Absolutely. Minnesota and Indiana passed good 
ceiling laws in the last couple of years. And I will also tell 
you the evidence shows if someone has been living crime free 
for 5 or 6 years in the community, they are no more likely to 
commit an offense than someone who never had a criminal record. 
So there is no value to these old records being publicly 
accessible.
    Ms. Norton. I can't say enough about incentives for people 
not to recidivate. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlewoman.
    We will now recognize the gentleman from Missouri, Mr. 
Clay.
    Mr. Clay. Thank you, Mr. Chairman. And let me thank the 
witnesses for appearing today. The work that you do in the area 
of criminal justice reform is of vital importance. I'm eager to 
learn from your expertise.
    On Friday, it was announced that President Obama as part of 
his plan to reform the criminal justice system, will be the 
first sitting President in history to visit a Federal prison, 
which will take place tomorrow. This unprecedented action 
prompted me to wonder whether those of us in Congress should 
consider doing the same?
    And as a bit of background in my days in the Missouri State 
legislature, I was the chairman of our prison committee, so 
I've visited numerous State prisons, I have not visited a 
Federal prison. I would like to throw that question out to 
anyone on the panel on what you think the redeeming benefit 
would be of a Member of Congress going to visit Federal prison, 
let's start with Ms. Ryan.
    Ms. Ryan. I think that would be great, because I think that 
you would be highlighting some of these issues in a very 
personal way. I would encourage you to go to the BOP facility 
in Lewisburg, Pennsylvania. That is one of the most abusive and 
heinous places in the Bureau of Prisons. Young people who are 
incarcerated there in their late teens and early 20s are 
subjected to very harsh and punitive actions by guards and 
placed in solitary confinement. So if you're going to pick one 
place, I hope you'll start there.
    Mr. Clay. How about the family members that go to visit? 
How are they treated?
    Ms. Ryan. I'm not as familiar with how the family members 
are treated, but the stories that we get through letters and 
calls usually come from the family members. They often will 
share information, but what they tell us is that if they show 
up and they're wearing the wrong thing or they've got--they 
came at, you know, a couple minutes late, they're not allowed 
in, and that's really difficult.
    And I think the point that Kevin made about families being 
very, very far from where inmates are held is also another huge 
issue.
    Mr. Levin. Can I add?
    Mr. Clay. Yes.
    Mr. Levin. I just got from back from touring prisons in 
Germany, and one of the interesting things we saw is probation 
officers come into the prison a month or two in advance to help 
that inmate start looking for a job and identify housing even 
before they start supervising them after they're released, 
which they actually do supervise them. And I'll also tell you 
our chair of the Senate Criminal Justice Committee in Texas, 
John Whitmire, he not only visits prisons, but he shows up 
unannounced.
    Mr. Clay. Mr. Ring.
    Mr. Ring. Please go and please show up unannounced. If you 
say you're coming, the whole dog-and-pony show will get put on 
for you. When we're on the inside, all of a sudden we get new 
shower curtains that the mold is gone, and everybody's working 
real hard and looking busy, and it's really--it's Potemkin 
Village. There's no reason to go if you're going to go that 
way, but I urge you to go.
    Mr. Clay. What----
    Mr. Tolman. Let me--if I might----
    Mr. Clay. Yeah. Go ahead.
    Mr. Tolman. If I might add, when I was congressional 
staffer, I accompanied Senators to Guantanamo Bay, in which 
they were going to reveal to us their methods of interrogation. 
It was far different than we would later learn occurred in 
those interrogations. And so I echo the unannounced visits, but 
I would say, more importantly, require reporting. Get into the 
actual data that shows you what is going on and dig through the 
data that's going on in those prisons.
    Mr. Clay. And what do you think would surprise a Member of 
Congress most if we made an unannounced visit to a prison? Mr. 
Ring?
    Mr. Ring. I would just say the lack of the sort of concern. 
I think that people are pretty much--and, again, I was in a 
camp, but we only had a couple guards. I mean, we could walk 
out the fence if we wanted to. I mean, there was a level of 
trust because we were considered the least risk, but just how 
little there is going on in terms of programming, activity, 
like sort of, I don't know, beneficial activity, anything along 
those lines, just--I think people say, well, it's good, it's 
boring. That doesn't sound bad. I'd like to be bored. But it's 
sort of a mind-wasting boredom. And if there's nothing 
productive to do with your time, I think people turn even more 
antisocial than they were when they get there, which is part of 
the problem.
    Mr. Clay. So there's no real effort toward rehabilitation, 
then, in our Federal system?
    Mr. Ring. That was my experience, and I think it's a 
product not only of--part of it is a product of budget. I mean, 
I don't think--I don't know if they know the programs. I don't 
see a lot of evaluation of the effectiveness of the programs 
they are running. As Mr. Tolman said, get reporting on this 
stuff. If we're going to fund more programs, see what works and 
doesn't work, and be willing to go a different direction.
    Mr. Clay. I think my time is up.
    Chairman Chaffetz. I thank the gentleman.
    People on my Facebook page think I should probably--think I 
should be there a little more often for a longer period of 
time, yeah. So, yeah, maybe we should just announce that we're 
coming and we don't need to actually show up, and get some new 
curtains, so--that was a good line of questioning.
    All right. We'll go to the gentlewoman from New Mexico, Ms. 
Lujan Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, for this 
important hearing. And I want to thank the panel. And I really 
want to, again, as we're focusing on recidivism so that we are 
looking at what populations ought to be incarcerated and for 
what reasons, and what we do about that in this country as we 
look at broad-based criminal justice reform, I hope this is a 
stepping off place to do that. I think it's really important to 
recognize that our criminal justice system is a place where, in 
my opinion, we are warehousing a mental health population. 
Given today in this country, we've got almost 8-1/2 million 
Americans who have both a mental health-diagnosed disorder and 
a substance abuse issue; these co-occurring issues we know 
unfortunately go hand in hand, given the lack of resources for 
this population.
    And we also know that as a result of that substance abuse 
issue, that we are not only holding and then treating those 
behavior health issues, the fact that we don't deal with them 
on the front end, we're dealing with them in jails, we don't 
deal with them on the back end either, so once you serve your 
time and you're out, we aren't doing anything to resolve those 
drug addiction and the issues associated with having a mental 
illness. And until this country does something about behavioral 
health issues, I fear that we can make lots of adjustments to 
the criminal justice system, but we are still going to have it 
as a de facto environment for institutional care for this 
population.
    Given that, and given that we know that the resources we 
could make lots of discussions--we should have lots of 
discussions, but in New Mexico, we pay higher than the national 
average, I think it's $30,000 a year for an inmate, we pay 
$34,000, and yet we pay $7,300 annually on public education for 
a student. So I think about my State where we're having so many 
issues, if we were reversing those investments. And when I was 
a Bernalillo County commissioner, we would have loved to 
reinvest those resources, because we just don't have them in 
the criminal justice system.
    You started to explore in looking at incentives in the 
conversation earlier in the hearing. What else are States doing 
to try to address the behavioral health issues? For example, 
New Mexico is just now working on Medicaid enrollment while you 
are serving time, so as you come out, we've got an insurance 
program to make sure that you're getting access. That's not, in 
and of itself, garnering productive access, but it's a step in 
the right direction. Are there other measures that we can look 
at that would be best practices to begin to deal with, on the 
front end and the back end, behavioral health issues for this 
population?
    Mr. Malcolm. Congresswoman, it's a very important point. I 
mean, ever since we had the deinstitutionalization movement in 
the '1960s and '1970s, a lot of people who used to be treated 
involuntarily are now in the streets, in our communities, and 
there are inadequate amounts of money that are spent on 
outpatient, you know, behavioral and mental health services for 
those people, and a number of them, of course, end up 
committing crimes, and that poses a real problem for the safety 
and security of those who are in prisons, since dealing with 
people who have mental and behavioral issues is a very 
different type of problem than the--your standard inmate that 
doesn't have these problems.
    States can address these with things like mental health 
courts, veterans courts, since our returning veterans suffer 
from emotional disorders that are unique to the experiences 
that they have had, that try to get them the help on the front 
end.
    Ms. Lujan Grisham. And I don't mean to interrupt you. 
You're on the right track, I totally agree, but these are also 
States, particularly with the mental health courts that have a 
behavioral health system, including mandated outpatient 
treatment programs which New York launched early and other 
States have struggled to get the sort of civil rights aspect of 
that correct, but if you have also best practices that marry 
those behavior--whole services with those systems, I'd be 
really interested in the States that are doing the best at 
that, since 80 percent of this population gets back in the 
criminal justice system, and clear that they're not getting 
what they need once they've been released.
    Mr. Malcolm. Well, you know, my colleague, Mr. Levin, could 
better address what each State is doing. I would say that 
States are not uniform and that there are--you know, different 
States have different environments, and perhaps should adapt 
the solutions that work best for them. So for instance, there's 
been a reference made to the Hawaii Hope Program, which is tied 
to methamphetamine, while other similar programs in the 
Dakotas, for instance, the 24/7 Program, address alcohol 
problems, which are the large problems in those States. Each 
State has to adapt their programs to their conditions, and they 
should study those results rigorously and share them with other 
States, who may be able to replicate those results.
    Ms. Lujan Grisham. Thank you. My time has expired, but Mr. 
Chairman, perhaps we could get a list of those and think about 
whether there's a Federal, so you can create some uniformity 
and really create the right kind of environment for reform.
    Chairman Chaffetz. I thank the gentlewoman.
    I now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I first want to 
thank you and the ranking member. I frequently say that as a 
freshman, we have a lot of surreal moments. This is one of 
those surreal moments in this committee that I, having served a 
lot of time in politics in California and been in the State 
legislature and having chaired the Budget Subcommittee when we 
were told by the Federal courts that we needed to remove 45,000 
of our inmates in the California Department of Corrections, and 
I was given the assignment only because no one else in the 
legislature was dumb enough to do it.
    So I remember, during that period, visiting State prisons 
and I remember standing outside of San Quentin, which was next 
to my congressional district, and the warden is now retired 
that was there then, but he was a tough old ranger, had been 
the warden at San Quentin twice, and a long time at Pelican 
Bay, and we were standing outside on the San Francisco Bay and 
he said, You know, if you told most of your constituents that 
what we're doing is making them less safe by doing what we do 
when we incarcerate these individuals, it would change the 
political dynamic quite a bit. And he said this in the tone of 
somebody who had spent 35 years at the Department of 
Corrections starting as a line officer.
    So my question, maybe Mr. Levin first and Mr. Malcolm, is, 
we spent a lot of time in those hearings with Washington State, 
who had the Institute for Public Policy, which was an MOU 
between their legislature and the administration, and Cleveland 
State University, and they started on evidence-based practices 
20 years ago in Washington State about, we're going to 
depoliticize a lot of this. The legislature's still going to 
make the decisions, so they're not off the hook, but we're 
going to give them enough evidence-based research that gives 
the public the confidence that these are the right investments 
to make so that you're not driven by being afraid of being 
Willie Horton'd in a primary or general election.
    So how do we do that at the Federal level, or maybe we're 
right on the cusp of doing that, that we rely enough on 
evidence-based research that we do what's the best investment 
from a policy standpoint to make sure that the public is, in 
fact, safe at the lowest possible cast? Mr. Levin?
    Mr. Levin. Well, that's a great question. And we've used 
the work of the Washington State Institute for Public Policy, 
their cost-benefit analysis and matrix of programs that reduce 
recidivism, and you can kind of look at the other step in that 
is to match the right program with the right offender with a 
risk-and-needs assessment.
    And obviously at the Federal level, you have things like 
the General Accounting Office that provide objective 
information. Maybe there's a way to expand their role in 
evaluating. I think having an independent outside the Federal 
Bureau of Prisons to evaluate whether programs are effective or 
not in reducing recidivism, which programs we may need more of. 
And you have to do it in an objective manner, because you have 
to look at who's going into the program, what is their risk 
level. You don't want to just have an incentive to put the 
lowest risk people in a program to show results. You actually 
want programs to really intervene with those who would 
otherwise be at the highest risk of recidivism.
    And I just--your anecdote about the San Quentin warden 
really rang a bell with me, and as well as the things that you 
said, Kevin, because, you know, I was talking to some people 
with the Prison Entrepreneurship Program, where they go in with 
executives and help inmates develop business plans. But they 
said, when some of these inmates come out, they first go to--
their first meal in a restaurant, they just stare at the menu, 
because they can't figure out what to order, because they 
haven't had to make any choices this whole time they were in 
prison. And as I was in Germany, I saw, for example, they had 
communal kitchens. They would pick out ingredients and make 
some of their own meals. That's just one can example of many 
where they did take on more responsibility. And they have in 
statute there that the prison should be as much as possible 
like general society so these people are prepared to live when 
they return.
    Mr. Malcolm. I would say, Congressman, that States and the 
Federal Government should obviously do everything they can to 
avoid what happened in California, being forced to release 
large numbers of prisoners through the Plata decision. And, 
look, with respect to avoiding Willie Hortons, there are a lot 
of very brave governors in red States, blue States, and purple 
States that have touched the third rail of running the risk of 
being soft on crime. Governor Deal was referred to, but you 
could also refer to former Governor Perry and Governor Haley 
and, you know, the Governors who appeared here yesterday to 
testify before you. And they are, you know, taking a methodical 
approach.
    I would say that bringing in best practices, that whatever 
it is you do, it has to be measured, it has to be constantly 
reevaluated, and it must be statistically valid and 
scientifically sound, or else you are just putting a Band-Aid 
and making it seem as if you are doing something that will 
ultimately not result in reductions of recidivism and will not 
enhance public safety.
    Mr. DeSaulnier. And I will just say we have a very visible 
case right now, an unfortunate murder on the waterfront in San 
Francisco, and it's become so politicized. It would be nice to 
be able to have an organization, and this involves--because it 
involves immigration and Federal authorities, that could go in 
and do a forensic, sort of like the chemical industry does, 
just do a forensic root cause of what--why did this happen and 
what do we do to fix it? And I'm unaware of something in this 
field that would be able to do, for instance, in the case of 
Catherine Steinle, who was a 32-year-old, unfortunately 
murdered by someone who was here illegally, and now it's--it's 
cut off this storm of politics unfortunately around this great 
tragedy as opposed to what did the--what did the immigration 
folks do that they should have done correctly, what did the 
Federal Bureau of Prisons do that they should have done 
correctly, and what do sanctuary cities have to do with this, 
and a less dispassionate, more forensic evidence-based research 
so we could fix it, because you have to wonder how many of 
those situations--how many people have been deported five 
times, got back in the country, and there but for the grace of 
God we would have had another tragedy like that.
    With that, I would yield back.
    Chairman Chaffetz. Thank the gentleman.
    Mr. Cummings and I have a few more questions, and then 
we'll be at the halfway point. We're getting near the end here.
    I now recognize Mr. Cummings, the ranking member, for 5 
minutes.
    Mr. Cummings. Thank you very much.
    Your testimony has been extremely helpful. I think one of 
the things that I'm most concerned about, and I just want to 
get your opinions on this. I've often said that there are 
transformative moments in our lives when you know that all the 
stars are aligned, you see the problem clearly, and you know 
that if you don't correct it at that moment, it only gets 
worse. What do you all see? I mean, you see the Congress and 
the Senate seem to be coming together, and you see--I mean, 
would you agree with me that if we can't get it done now, it's 
going to be kind of hard to get it done? Mr. Tolman?
    Mr. Tolman. I wholeheartedly agree. I'm worried about that, 
because there are a lot of dynamics and politics does get in 
the way, but you're correct. I believe that we're now seeing 
the problem. We're looking back and we're seeing a culture of 
punishment that we had hoped would root out criminal trends, 
but instead, what that culture of punishment has resulted in is 
problems that are far more difficult to take care of, and now 
is the time, or else we will be, similar to California, having 
missed our legislative opportunities to fix it.
    Mr. Cummings. Anybody else?
    Mr. Levin. Well, I mean, I think you're absolutely right. 
We've seen kind of--you know, you described, and we've 
described all these different States where legislators have 
come together. Some of these States have passed reforms 
unanimously, in other States it's been a few votes short of 
unanimous, and so it is fairly rare. And obviously, we've seen 
so many bills in Congress with kind of unlikely cosponsors. So 
I believe that people who say that nothing can get done in 
Washington, I think we have a great chance to prove them wrong 
this year.
    Mr. Cummings. Ms. Ryan, you know, you talked about 
Lewisburg. I remember visiting Lewisburg to see an inmate years 
ago, many years ago. It's interesting that that prison could 
earn such a reputation, but apparently a lot has changed. You 
know, it seems to me if I were running an institution and it 
had--and I know--and I'm sure the Bureau of Prisons is looking 
in on this now, I hope so anyway, you know, and I had a prison 
like that that has that kind of rep, I mean, what does it take 
to reverse that other than, I mean, the spot visits or--and 
what are the questions that one asks? I mean, what can we do to 
correct that kind of situation? We are--we are elected by the 
people to make--and this committee is to make sure that 
government operates properly. And it would be, I think, 
legislative malpractice if we did not do what was appropriate, 
assuming that we know what to do. And so, what advice would you 
give us?
    Ms. Ryan. I think there's a number of things that you can 
do. And I think it's great that this is an oversight committee, 
because that's really what's needed for the Federal Bureau of 
Prisons, is much more vociferous oversight. And the point of 
having surprise inspections is really true. I think if they 
know you're coming, they're going to put on a show.
    And the other piece that you have to be concerned about is 
retaliation against anyone who's incarcerated there. So you 
can't just talk to a couple people here and there and you can't 
do it in the presence of guards. You have to talk to everybody, 
you have to stay for a couple days. And doing that takes a lot 
of time and energy. I would encourage you to establish an 
independent oversight board of the Bureau of Prisons that has 
this kind of function. And that I would encourage you to have 
directly-affected family members as members of that board, 
because you will learn a lot more from the families who have 
loved ones in these institutions. And then I think, ultimately, 
we have to stop investing in things that don't work. I mean, 
all of this talk about investment in what works is great, but 
we continue to invest in things that don't work, like trying 
kids in adult court, putting people in institutions where 
they're subjected to inhumane confinement. We know solitary 
confinement is harsh and punitive. We should stop doing that. 
So those would be the things I would start with.
    Mr. Levin. Can I also just add, one thing that came up 
earlier, with regard to people pleading to things that they 
didn't actually do, I think the open vial policy, which we've 
adopted in Texas, it's also in the Safe Act, is very important. 
That allows the defense to see exculpatory evidence, to have 
transparency. And obviously, there's things that need to be 
redacted dealing with victims and homeland security, but in 
general, there ought to be--and the reason this came about in 
Texas, it's called the Michael Morton Act, because this man 
served 26 years in prison, he didn't kill his wife, he never 
committed any crime, and he helped then pass this legislation.
    Mr. Cummings. You know, Mr. Ring, I can't help but think 
about what you said about family. As a father of two beautiful 
daughters myself, I know it has to be difficult. And you admit 
that you had it easier than most people. People in my 
neighborhood, they go to hard time, they have hard time. You 
know, it's painful.
    I was sitting here and I was thinking about marijuana. I've 
got people in my neighborhood serving 2, 3, 4 years for 
marijuana, then they turn on the television and they're buying 
it in Colorado. What kind of justice system is that? You know, 
and going back to, I think you said it, folks aren't--you know, 
they're not looking at the penalties and all that, but they do 
know one thing, when they turn on the television, they see 
people sitting in a bar with dollar bills buying marijuana, and 
they've got cousins sitting in jail. They don't understand 
that.
    And I'm just wondering, how do--how do we deal with the 
family thing? I mean--because we heard a lot of testimony about 
people who have--adults who have children, there's millions of 
them, that are finding it very difficult. So what--I mean, what 
do you have to say about that? And what's your organization 
doing to deal with that? I mean, you know, I've often said 
that, Mr. Ring, out of our pain quite often comes our passion 
to do our purpose: pain, passion, purpose. And, you know, I'm 
sure that you saw a lot--you felt a lot of pain. You just got a 
sample of the pain that a lot of other people are going 
through. And I'm not trying to minimize it, don't get me wrong, 
but can you give me some--help me with that?
    Mr. Ring. Yeah. I was always cognizant of how good I had 
it. I had a shorter sentence. You learn not to talk about your 
sentence if you had a shorter one. I lived with bunkmates who 
had 15 years, 10 years. I remember one time a guy saying to 
me--you know, it was getting short and he started--he started 
losing his mind a little bit because he was getting nervous, 
and we had a talk one time. Actually, I was going through a bad 
time and he was counseling me, and he said, you don't know my 
life. He said, you're just dying to get back to your 
neighborhood and to your kids and your house and your job.
    They're all waiting for you. He goes, I'm going to go back 
to my neighborhood, and all my old friends are going to want to 
get me back in the game, because they drug runners, and he was 
deathly afraid of that. He was one of those people you meet 
that was so institutionalized, I do think there was a big chunk 
of him that thought he was better off there, because he had 
been there for 8 years, his wife was taking care of the kids, 
they were there without him. He almost knew that that status 
quo worked, and he could live in prison. He was so scared about 
going out. That's a terrible situation if we come to that point 
where he thinks he's better off in jail.
    In terms--there's no policy, I think, that fixes that. I 
think you can do a better job of keeping people closer together 
and programs that work on parenting, and--but I think it's a 
cultural thing. I think we're very vengeful people. I think 
that even people who have, you know, minor convictions, when 
they go for a job application, people look at you funny. I know 
a lot of people who--you know, again, it wasn't my experience, 
but didn't get jobs. If it's down to you and somebody else, 
you're tossed out.
    So I think it's bigger, broader, cultural. I think in the 
same way you've seen other movements, normalized different sort 
of things in our country, what we did with smoking, what we did 
with gay rights, other things. With prisoners, there has to be 
a sense that you're coming back, we want you back, and we're 
going to welcome you in society in a way that makes you 
productive, because it's in our interest too, but that is not 
something you can legislate, I don't think.
    Mr. Cummings. You know, one of the things I--you know, it's 
amazing how as you're on earth for a while you do so many 
things, and one of the things that I--you know, had different 
jobs, and one of the things--two things I did, was when I first 
came out of law school, I taught in a prison, in the Maryland 
Penitentiary for 2 years, as a matter of fact. Just an ad hoc, 
you know, just a little course on, of all things, criminal 
justice. And it's interesting that later on, I hired some folk 
who had gotten out of prison who I had taught.
    And I noticed something very interesting, that I think 
prison does something to people, because I think because 
they're told when to sit, when to go to the bathroom, whatever, 
it's some--I mean, maybe not for you, but for people that have 
been there a long time, they have no concept of, some of them, 
no time, of responsibility, of a lot of things that--and I 
don't know that people know that prison does have--it's more 
than just locking up the body; it also quite often, and you 
were alluding to that, affects the mind. I know people who have 
come out after many years, and they don't even want to come out 
of their house, they don't even want to come out of their 
house, because they--it's--they become so conditioned.
    Would you--I mean, any of you want to comment on that? I 
had a whole other line of questions, but I'm kind of--but I 
do----
    Mr. Tolman. I had a conversation with a Federal judge 
fairly recently that has sentenced some significant sentences, 
and he said to me in a moment of candor, you know what 
prosecutors have forgotten? And I said, no. And he said, how 
long 2 years actually is. Because the sentences you seek as a 
prosecutor often--you think of 2 years as a minimal sentence, 
and perhaps a failure in your case. You think of 8 and 10, and 
these numbers become almost badges of--of an acceptance in the 
community that you're in as a prosecutor. And this judge said--
you know, who's been on the bench a while, he said, we've 
forgotten how long 2 years is.
    Mr. Cummings. Wow.
    Mr. Chairman, just one other thing. I don't know if we got 
this in the record. The ACLU written testimony, American Civil 
Liberties Union, House Oversight, dated July 15. I'd like to 
have that submitted.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. I yield back.
    Chairman Chaffetz. This has been a very productive 2 days. 
We've had three good panels, good quality discussion, we've 
talked about a whole variety of topics.
    If there are additional materials, additional statements 
that you would like us to review that could inform us, we'd 
appreciate that, everything from drug rehabilitation, I think 
the point made about the mental health issues and how we're not 
assessing those, not dealing with those in so many of these 
people who have mental health problems are ending up in our 
system and dealing with law enforcement on a regular basis. 
Very interested in Texas and what they're doing with the sort 
of client choice. There could be nothing worse than to know or 
feel you're innocent, or at least you want a good quality 
trial, and you get assigned a public defender who's not up to 
the case and doesn't seem to care about you. You ought to have 
some choice. I just believe in that type of principle. It's 
probably true in this instance as well.
    I'm intrigued by this oversight of the Bureau of Prisons, 
because we are only as good as the information we get. And we 
get spread very thin. The inspector general, in this case, I 
think, does a good job, but even they are spread thin on this 
issue.
    And one thing that I would like to be addressed, and if you 
can follow up with me on, and we haven't really talked about 
this, but there are victims' rights. You know, there are 
victims on a lot of these crimes. Not everybody in prison is 
innocent. There are a lot of people that have been harmed. And 
I think we--to complete the circle to totally tackle this in a 
thoughtful way, I think we also need to address victims' 
rights.
    And if you have additional thoughts or perspectives on 
that, we haven't really heard that in the last 3 days, but that 
too, in the completeness--the fullness of the discussion and 
trying to get this right, we but get very few opportunities to 
address these things. Hopefully I would encourage, I've been a 
participant, I've worked hand in glove across the aisle and in 
a bicameral way to get legislation passed, and then it won't be 
addressed for a long time, and so we have but one chance, and I 
want to get it right. Whether it's a series of bills or a bill, 
I do hope we come together and that we can push this. And I 
think you've seen a broad bipartisan support; not just one or 
two people, very broad bipartisan support. We need to keep that 
momentum going.
    So we thank you all today for your expertise, what you've 
given to your country, your patriotism, and we thank you. This 
committee stands adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
